<html>
<title> - GPS RELIABILITY: A REVIEW OF AVIATION INDUSTRY PERFORMANCE, SAFETY ISSUES, AND AVOIDING POTENTIAL NEW AND COSTLY GOVERNMENT BURDENS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                 GPS RELIABILITY: A REVIEW OF AVIATION

                  INDUSTRY PERFORMANCE, SAFETY ISSUES,

                 AND AVOIDING POTENTIAL NEW AND COSTLY

                           GOVERNMENT BURDENS

=======================================================================

                                (112-38)

                             JOINT HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

                                AVIATION

                                AND THE

                            SUBCOMMITTEE ON

                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON

                   TRANSPORTATION AND INFRASTRUCTURE

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 23, 2011

                               __________

                       Printed for the use of the

             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/

        committee.action?chamber=house&committee=transportation




                  U.S. GOVERNMENT PRINTING OFFICE
67-048                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey        Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
ANDY HARRIS, Maryland                MICHAEL E. CAPUANO, Massachusetts
ERIC A. ``RICK'' CRAWFORD, Arkansas  TIMOTHY H. BISHOP, New York
JAIME HERRERA BEUTLER, Washington    MICHAEL H. MICHAUD, Maine
FRANK C. GUINTA, New Hampshire       RUSS CARNAHAN, Missouri
RANDY HULTGREN, Illinois             GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              JASON ALTMIRE, Pennsylvania
LARRY BUCSHON, Indiana               TIMOTHY J. WALZ, Minnesota
BILLY LONG, Missouri                 HEATH SHULER, North Carolina
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         LAURA RICHARDSON, California
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
JEFFREY M. LANDRY, Louisiana         DONNA F. EDWARDS, Maryland
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma
REID J. RIBBLE, Wisconsin
CHARLES J. ``CHUCK'' FLEISCHMANN, 
Tennessee

                                  (ii)



                        Subcommittee on Aviation

                  THOMAS E. PETRI, Wisconsin, Chairman

HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       RUSS CARNAHAN, Missouri
FRANK A. LoBIONDO, New Jersey        DANIEL LIPINSKI, Illinois
SAM GRAVES, Missouri                 PETER A. DeFAZIO, Oregon
JEAN SCHMIDT, Ohio                   BOB FILNER, California
FRANK C. GUINTA, New Hampshire       EDDIE BERNICE JOHNSON, Texas
RANDY HULTGREN, Illinois             LEONARD L. BOSWELL, Iowa
CHIP CRAVAACK, Minnesota, Vice       TIM HOLDEN, Pennsylvania
Chair                                MICHAEL E. CAPUANO, Massachusetts
BLAKE FARENTHOLD, Texas              MAZIE K. HIRONO, Hawaii
BILLY LONG, Missouri                 STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         ELEANOR HOLMES NORTON, District of 
STEVE SOUTHERLAND II, Florida        Columbia
JAMES LANKFORD, Oklahoma             NICK J. RAHALL II, West Virginia
JOHN L. MICA, Florida (Ex Officio)     (Ex Officio)
REID J. RIBBLE, Wisconsin
CHARLES J. ``CHUCK'' FLEISCHMANN, 
Tennessee

                                 7_____

        Subcommittee on Coast Guard and Maritime Transportation

                FRANK A. LoBIONDO, New Jersey, Chairman
DON YOUNG, Alaska                    RICK LARSEN, Washington
HOWARD COBLE, North Carolina         ELIJAH E. CUMMINGS, Maryland
ANDY HARRIS, Maryland                CORRINE BROWN, Florida
FRANK C. GUINTA, New Hampshire       TIMOTHY H. BISHOP, New York
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              MICHAEL H. MICHAUD, Maine
JEFFREY M. LANDRY, Louisiana,        NICK J. RAHALL II, West Virginia
  Vice Chair                           (Ex Officio)
JOHN L. MICA, Florida (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               TESTIMONY
                               Panel One

Day, Rear Admiral Robert E., Jr., Assistant Commandant for 
  Command, Control, Communications, Computers, and Information 
  Technology, and Chief Information Officer, U.S. Coast Guard, 
  U.S. Department of Homeland Security...........................     3
Kienitz, Hon. Roy W., Under Secretary for Policy, U.S. Department 
  of Transportation..............................................     3
Takai, Teresa M., Acting Assistant Secretary of Defense for 
  Networks and Information Integration, and Chief Information 
  Officer, U.S. Department of Defense............................     3

                               Panel Two

Carlisle, Jeffrey J., Executive Vice President, Regulatory 
  Affairs and Public Policy, LightSquared........................    20
Fuller, Craig, President and CEO, Aircraft Owners and Pilots 
  Association....................................................    20
Hendricks, Thomas L., Senior Vice President for Safety, Security, 
  and Operations, Air Transport Association of America, Inc......    20
Jenny, Margaret T., President, RTCA, Inc.........................    20
Straub, Philip, Vice President, Aviation Engineering, Garmin 
  International, Inc.............................................    20

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Costello, Hon. Jerry F., of Illinois.............................    43
Larsen, Hon. Rick, of Washington.................................    46
LoBiondo, Hon. Frank A., of New Jersey...........................    51

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Carlisle, Jeffrey J..............................................    53
Day, Rear Admiral Robert E., Jr..................................    70
Fuller, Craig....................................................    71
Hendricks, Thomas L..............................................    77
Jenny, Margaret T................................................    81
Kienitz, Hon. Roy W..............................................    92
Straub, Philip...................................................    97
Takai, Teresa M..................................................   116

                       SUBMISSIONS FOR THE RECORD

United States Coast Guard:

    Response to question from Hon. Frank A. LoBiondo, a 
      Representative in Congress from the State of New Jersey, 
      regarding the Department of Homeland Security's thoughts on 
      LightSquared's proposal and its impact on GPS..............    10
    Response to question from Hon. Frank A. LoBiondo, a 
      Representative in Congress from the State of New Jersey, 
      asking if the Department of Homeland Security has 
      determined if a backup system for GPS is needed............    11

                        ADDITIONS TO THE RECORD

Air Line Pilots Association, International, Lee Moak, President, 
  letter to Hon. Thomas E. Petri, a Representative in Congress 
  from the State of Wisconsin, June 22, 2011.....................   121
Association for Unmanned Vehicle Systems International (AUVSI), 
  written statement..............................................   123
National Business Aviation Association, Ed Bolen, President and 
  CEO, written statement.........................................   128


[GRAPHIC] [TIFF OMITTED] 67048.000

1[GRAPHIC] [TIFF OMITTED] 67048.000

2[GRAPHIC] [TIFF OMITTED] 67048.000

3[GRAPHIC] [TIFF OMITTED] 67048.000

4[GRAPHIC] [TIFF OMITTED] 67048.000

5[GRAPHIC] [TIFF OMITTED] 67048.000

6[GRAPHIC] [TIFF OMITTED] 67048.000

7[GRAPHIC] [TIFF OMITTED] 67048.000

8[GRAPHIC] [TIFF OMITTED] 67048.000

[GRAPHIC] [TIFF OMITTED] 67048.001
[GRAPHIC] [TIFF OMITTED] 67048.001

[GRAPHIC] [TIFF OMITTED] 67048.001

[GRAPHIC] [TIFF OMITTED] 67048.001



                GPS RELIABILITY: A REVIEW OF AVIATION



                  INDUSTRY PERFORMANCE, SAFETY ISSUES,



                 AND AVOIDING POTENTIAL NEW AND COSTLY



                           GOVERNMENT BURDENS

                              ----------                              


                        THURSDAY, JUNE 23, 2011

        House of Representatives, Subcommittee on Aviation, 
            Joint with the Subcommittee on Coast Guard and 
            Maritime Transportation, Committee on 
            Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 9:00 a.m. in 
room 2167, Rayburn House Office Building, Hon. Thomas E. Petri 
(Chairman of the Subcommittee on Aviation) presiding.
    Mr. Petri. The subcommittee will come to order. We will be 
joined as we get into the proceedings by the chairman of the 
Coast Guard Subcommittee, but he is detained at another 
meeting.
    Today we will explore LightSquared's plan to build out 
terrestrial broadband Internet service, and its potential 
impacts on GPS users, safety, and NextGen.
    Safety is the top priority of the Aviation Subcommittee. 
Sadly, advancements in aviation safety have often come only 
after fatal accidents.
    Over the years, the FAA has shifted to a risk based data 
driven safety system in order to act proactively and to prevent 
the loss of life.
    The subcommittee supports this proactive effort to identify 
and address safety issues before there is an accident.
    When a potential safety issue is brought to our attention, 
we must seek information and work with the community and the 
FAA to ensure the risk is properly addressed.
    The Global Positioning System, or GPS, serves a critical 
role in aviation safety and airspace modernization known as 
NextGen.
    Aviation infrastructure and efforts to update it with the 
Department of Transportation's NextGen program are a platform 
for growth in the U.S. economy and a key driver of economic 
activity. NextGen is also a key component for job creation 
within the aviation industry.
    It is important that the Government does nothing to limit 
NextGen's efforts, both in terms of impacting job creation and 
undermining or delaying important advancements in air traffic 
management.
    New burdens on the aviation industry as a result of FCC 
approval would likely stifle NextGen efforts, and the resulting 
economic growth and job creation. As such, new and costly 
burdens on aviation users are simply unacceptable.
    Due to various concerns raised by GPS users, the 
LightSquared proposal we are considering at today's hearing has 
been the subject of Government and industry expert field 
testing and review.
    Analysis conducted by two independent technical teams show 
significant GPS interference would result if LightSquared were 
to roll out its terrestrial network as originally planned.
    In fact, the Government team, the National Space-Based PNT 
Systems Engineering Forum or NPEF, recommended that the FCC 
rescind the waiver which allows LightSquared to proceed in its 
plans to offer service in the spectrum neighboring GPS.
    The Government team further recommended that the FCC 
readdress the effects of the FCC's authorization for 
LightSquared service in the neighboring spectrum.
    The team said, ``At the conclusion of this NPEF effort, 
significant concerns remain that operation of an ancillary 
terrestrial component integrated service as originally 
envisioned by the FCC cannot successfully coexist with GPS.''
    In the face of these results, LightSquared announced on 
Monday, June 20, that they would revise their roll out plans to 
address GPS interference concerns.
    However, that revised plan has not been subject to a full 
evaluation.
    The RTCA, which is represented on our second panel of 
witnesses, also conducted testing of potential GPS 
interference.
    The RTCA's initial testing reportedly showed a smaller 
portion of LightSquared's spectrum allocation than they are 
currently contemplating for use would be suitable for assuredly 
safe operation.
    I would like to hear the full details of LightSquared's 
revised plan today, so that the subcommittees and appropriate 
GPS, Government and industry experts can evaluate the technical 
aspects of the plan.
    I spoke a month ago about the importance of GPS for both 
the safety and efficiency of the national airspace system, as 
well as the importance of the national airspace system as a 
platform for growth in these United States.
    Based on the testimony provided to date to the subcommittee 
regarding the potential negative impact of LightSquared's 
presence within the L-Band spectrum neighboring GPS, and based 
on the importance of GPS, the subcommittee may request the FCC 
allow time for full comprehensive testing of the plans 
announced on Monday for potential harmful interference impacts.
    To be fair, LightSquared's goal of providing more broadband 
Internet capacity is an additional platform for commerce, but 
it must not interfere with aviation safety, job creation, or 
NextGen.
    In aviation, there is no room for error.
    The impact of LightSquared's revised plans should be 
independently and thoroughly tested to ensure the FCC does not 
approve plans that would introduce unacceptable risks into the 
aviation system or leave the aviation GPS users with new and 
costly burdens.
    Finally, before I recognize Mr. Costello and the chair and 
ranking member of the Coast Guard Subcommittee for their 
opening statements, I ask unanimous consent that all Members 
have 5 legislative days to revise and extend their remarks, 
including extraneous material for the record of this hearing.
    Without objection, it is so ordered.
    I recognize Mr. Costello for any opening remarks he chooses 
to make.
    Mr. Costello. Mr. Chairman, thank you. I thank you and 
Chairman LoBiondo for calling this hearing this morning.
    In the interest of time, I have an opening statement that I 
will submit for the record. I will also ask unanimous consent 
to insert Mr. Larsen's statement in the record as well.
    Mr. Chairman, I look forward to hearing the testimony of 
our witnesses today, and just would note that any solution, any 
technical solution, that we arrive at to address this issue 
will have to have the input and agreement of the aviation 
community.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    Mr. Petri. I ask unanimous consent to incorporate 
statements by Mr. Costello and Mr. Larsen into the record.
    We will begin with the first panel. To accommodate the 
witnesses' schedules, we have moved this up to a little earlier 
than normal congressional time, although working at 9:00, 
nothing is bad with that.
    The first panel consists of The Honorable Roy Kienitz, who 
is a well known figure to those of us in transportation. He is 
the Under Secretary for Policy for the Department of 
Transportation.
    Teri Takai, who is the Acting Assistant Secretary for 
Networks and Information Integration and Chief Information 
Officer of the U.S. Department of Defense.
    Rear Admiral Robert E. Day, Jr., who is Assistant Commander 
for Command, Control, Communications, Computers and Information 
Technology and Chief Information Officer of the United States 
Coast Guard, U.S. Department of Homeland Security.
    We thank you very much for joining us today. We understand 
the time pressures you are under. You are all familiar with the 
congressional procedure here, and we invite you to summarize 
your prepared statements in 5 minutes, beginning with Mr. 
Kienitz.

TESTIMONY OF THE HONORABLE ROY W. KIENITZ, UNDER SECRETARY FOR 
  POLICY, U.S. DEPARTMENT OF TRANSPORTATION; TERESA M. TAKAI, 
    ACTING ASSISTANT SECRETARY OF DEFENSE FOR NETWORKS AND 
  INFORMATION INTEGRATION AND CHIEF INFORMATION OFFICER, U.S. 
  DEPARTMENT OF DEFENSE; AND REAR ADMIRAL ROBERT E. DAY, JR., 
  ASSISTANT COMMANDANT FOR COMMAND, CONTROL, COMMUNICATIONS, 
  COMPUTERS, AND INFORMATION TECHNOLOGY AND CHIEF INFORMATION 
OFFICER, U.S. COAST GUARD, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Kienitz. Thank you, Mr. Chairman, and Mr. Chairman 
Emeritus. I am the one who needed the time moved, so I am very 
appreciative, as you know.
    I would like to begin with a brief outline of GPS, which is 
of course the reason we are here today.
    As most people know, GPS was developed by the U.S. 
military. Today, it is still operated and mostly paid for by 
the Air Force.
    In 1983, President Reagan announced that GPS would be 
available to users worldwide. In 1994, President Clinton 
decreed that GPS would be free to users worldwide.
    Finally, in 2000, the positional accuracy of the civil 
signal was greatly increased and new industries based on 
precision navigation and timing were born, and as a result, 
today, GPS is everywhere.
    Since it is used as a matter for the free market, this is a 
key point, no one actually knows how many commercial uses it 
has, because anyone can access it anywhere for free at any time 
without Government monitoring.
    What we do know is worldwide yearly sales of GPS navigation 
devices exceed $20 billion and an estimated $3 trillion worth 
of commerce relies on GPS for tracking, timing, and navigation.
    Whatever the actual numbers are, the decision to provide 
GPS for free is one of America's great economic gifts to the 
world since the Marshall Plan.
    As we all here know, GPS plays a key role in 
transportation. Many millions of U.S. drivers use GPS to 
navigate, including over 6 million cars equipped with GM's 
OnStar system.
    Positive Train Control, which enhances safety for rail 
transportation, also relies on GPS. DOT is converting over a 
multiyear period the air traffic control system from an analog 
radar based system to a digital system built around GPS, which 
is our NextGen system that you referenced.
    We estimate that soon as many as 60,000 aircraft will be 
equipped with GPS.
    So far, FAA and the aviation industry have invested over $8 
billion in NextGen, and there are many billions more to come on 
both the public and private side.
    The uses of GPS go far beyond transportation. It is 
essential for first responders, search and rescue, weather 
tracking, financial transactions, surveying and mapping, and 
industries like precision agriculture, where the ability to 
water and fertilize crops with great accuracy reduces pollution 
and saves American farmers up to $5 billion a year.
    To achieve the accuracy necessary for many of these uses, 
GPS receivers are designed to pick up signals and cross the 
entire range of the licensed GPS band.
    The limits of engineering and physics to some degree are 
such that the receivers that do this are also sensitive to some 
signals in adjacent bands, including what is called the MSS 
band (mobile satellite systems), which is set aside for 
satellite phones.
    Until now, this was not a problem because both in the GPS 
band and in the MSS band, these are what are called ``quiet 
bands,'' limited to weak signals coming from satellites, and 
when those signals reach the ground, they register at a tiny 
fraction of a watt. The filtering devices that are on GPS units 
easily filter out the satellite signals in the neighboring 
bands.
    To get more out of the limited spectrum that exists, the 
FCC has been encouraging for a long time more use of the MSS 
band, as with many other parts of the spectrum. This has 
included in MSS allowing telecom companies to set up some 
ground based antennas that would cover areas that are difficult 
to serve with satellite reception, such as hilly terrain or 
urban canyons.
    By contrast, the ground signals coming from these antennas 
can be very powerful, more than a billion times the strength of 
a signal coming from a satellite, and as such, these signals 
can and easily do overwhelm the filters on a lot of current GPS 
receivers.
    To guard against this, the FCC had restricted ground 
antennas to a subordinate role in any use in that band in such 
a way that they could not interfere with satellite 
transmissions. This was called the ``integrated service rule.''
    As long as this rule was being observed, satellite signals 
in the MSS band were protected from interference from ground 
stations. If they were protected, by extension, so was GPS, 
which was in the neighboring band.
    Now, we fast forward to today. LightSquared has asked the 
FCC for permission to use the MSS band for mobile broadband 
service under a waiver of this integrated service rule.
    Their goal of providing widespread mobile broadband across 
the country is, as the chairman said, consistent with our 
policy of trying to give up to 98 percent of Americans access 
to mobile broadband.
    It is not without its problems. Indeed, in January of this 
year, the FCC approved this concept contingent on resolving any 
interferences with GPS.
    The technical working group, which the chairman mentioned, 
is going to be reporting next week, I think. In addition, as he 
said, we commissioned RTCA to do a study, and we participated 
in this broader Federal study looking at all potential uses.
    The tests mostly focused in three areas. The first is this 
basic question of leakage. Are the LightSquared's signals sent 
out in their band leaking over into the GPS band?
    The news there appears to be good, that is not happening. 
LightSquared has spent a lot of time and energy on engineering 
very good filters to make sure it does not leak out of their 
band. That seems to be working.
    The second question is called overload interference, which 
is interference with GPS receivers that are sensitive to 
transmissions in these neighboring bands next to GPS.
    The news here was not very good. The powerful signals from 
LightSquared's ground antennas overwhelmed the filters in most 
GPS units tested, causing them to either report inaccurate 
location data or not report anything at all.
    Third, the test looked at what is called intermodulation. 
LightSquared plans to transmit under the original plan in two 
discrete frequencies in the MSS band. These are each 10 MHz-
wide blocks with a buffer between them.
    In the world of transmissions, two powerful parallel 
signals like that can create an echo effect when the two of 
them are going at the same time, and that can show up outside 
the spectrum band.
    The tests that we have done so far showed that when both 
powerful signals were on, it did indeed create intermodulation 
interference within the GPS band.
    Our conclusion from all of this is that the original 
LightSquared proposal made to the FCC is not compatible with 
the current operation of the GPS system.
    Thomas Edison famously tested and rejected thousands of 
potential filaments before finding one that made the light bulb 
work.
    In the same vein, we have now tested one proposal here, and 
we found unfortunately it did not work as originally hoped. 
That does not mean the story is over.
    As you mentioned, on June 20, LightSquared offered an 
alternative plan where they would start out by using only one 
of their two bands, the so-called ``lower 10'' band, which is 
furthest away from GPS.
    What phase two of their plan would look like is not so 
clear. This idea, indeed, may have promise. That said, and this 
is really the key point, since it was not part of the original 
plan submitted to the FCC, it has not been tested, and the one 
sure thing in all of this is any plan needs to be thoroughly 
tested before it goes forward.
    Our goal at DOT is to look for a win-win, where we can have 
much better broadband service nationwide, but to do so without 
disrupting GPS and vital services it provides like NextGen.
    Thank you.
    Mr. Petri. Thank you.
    Ms. Takai?
    Ms. Takai. Good morning, Mr. Chairman, and distinguished 
subcommittee members. Thank you for the opportunity to testify 
this morning regarding the importance of the Global Positioning 
System or GPS to U.S. national defense capabilities.
    My testimony today will focus on the importance of GPS 
reliability to the Department of Defense, in ensuring that our 
war fighters and mission partners have the critical 
capabilities they need and which only GPS can effectively 
deliver.
    GPS is vital to national security and is relied upon by our 
Service men and women for a wide array of capabilities. Simply 
put, it is integrated into almost every aspect of U.S. military 
operations.
    It is designed to deliver extremely accurate information of 
three dimensional positioning, velocity, speed and direction, 
and precise timing to virtually all DOD aircraft, ships, land 
vehicles and personnel on the ground.
    Used throughout all Services and combatant commands, GPS 
supports all training and contingency operations, ranging from 
tactical to through strategic levels.
    To provide but a few examples, GPS signals are used to 
ensure the accuracy of precision guided munitions, to guide 
troop movements, to synchronize communication networks, to 
enable battle space situational awareness, and to conduct 
search and rescue operations.
    I want to ensure the subcommittee that DOD takes its 
stewardship role for GPS very seriously.
    We also know that civil and commercial sectors have long 
embraced GPS for its public safety capacities and economic 
advantages.
    Consequently, we have developed a partnership with civil 
and commercial sectors, and really appreciate our partnership 
with those speaking with me today on this very critical issue.
    To deliver GPS service to all DOD and civil and commercial 
users who rely upon it, DOD maintains and continuously upgrades 
a constant constellation of 24 satellites composed of a minimum 
of four satellites in each six planetary orbits at a very cost 
effective budget currently of $1.7 billion annually.
    Radio frequency spectrum is essential to DOD, not only for 
GPS, but also we use federally allocated spectrum for command 
and control operations, communications, intelligence, 
surveillance and target acquisition, and other military 
activities on land, at sea, under sea, airborne, and in space.
    Military spectrum requirements are diverse and complex, 
given the variety of missions the Department must support.
    In the Continental U.S., GPS is essential to military 
readiness, allowing our forces to properly train as they must 
fight and support contingency operations overseas.
    We must also ensure that we have interoperability with our 
military allies.
    All of these are driving DOD's spectrum requirements, much 
the same way as consumer mobile broadband demand is a major 
factor today.
    DOD fully supports the national economic and security goals 
of the President's 500 MHz initiative, and we are committed, as 
my colleagues, to the implementation of more effective and 
efficient use of the finite radio frequency spectrum and the 
development of solutions that ensure no loss of critical 
national security capabilities, including GPS.
    With my colleagues, in February 2011, the executive group 
of the National Executive Committee of Space-Based Positioning, 
Navigation and Timing tasked the National PNT Engineering Forum 
to conduct an assessment of the effects of LightSquared's 
planned deployment.
    I co-chair that executive group along with my counterpart 
at the Department of Transportation. An executive committee for 
PNT is co-chaired by my Deputy Secretary and the Deputy 
Secretary at Transportation, and includes members from 
Departments of State, Interior, Agriculture, Commerce, Homeland 
Security, the Joint Chiefs of Staff, and the National 
Aeronautics and Space Administration.
    Our role is to advise the Departments and the Executive 
Office regarding strategic policies and requirements, security 
of all U.S. positioning, navigation and timing.
    We strongly support PNT and NPEF by tasking the Air Force 
Space Command along with Naval Space Warfare System Center to 
rapidly ramp up and conduct testing of the effects of the 
proposed LightSquared network upon a cross section of DOD, 
civil aviation, public safety, and commercial GPS receivers.
    This testing was performed at our White Sands Missile Range 
and at Holloman Air Force Base in New Mexico in cooperation 
with PNT, other Federal agency members, and civil and 
commercial industry advisory members.
    The results of these tests were submitted to the spectrum 
regulator, NTIA, on June 15. This test data does indicate that 
the proposed LightSquared terrestrial operations would cause 
harmful interference to the GPS operations, as my colleague 
from the Department of Transportation has explained.
    For example, GPS receivers of various types and manufacture 
operated by DOD, the National Geospatial Intelligence Agency, 
U.S. Coast Guard, FAA, and the State of New Mexico Public 
Safety, as well as commercial aviation and precision fishing 
systems all showed varying degrees of degradation of GPS 
accuracy, interruptions to GPS signal acquisition, or total 
loss of GPS tracking and positioning, depending upon the GPS 
receiver's proximity to the tested LightSquared signal 
transmitter.
    The potential for interference to GPS from the proposed 
LightSquared terrestrial network exemplifies the complicated 
technical policy and regulatory challenges in re-purposing 
longstanding spectrum allocations.
    The Department will continue to work with the 
administration and NTIA, as well as with Congress, to address 
long-term solutions regarding the balance between Federal 
spectrum requirements and the expanding demand for mobile 
broadband services.
    We have a wealth of institutional and personnel expertise 
in radio frequency engineering, and we look forward to 
continuing to work with the organizations to further ensure all 
proposed mitigation's or alternatives are thoroughly tested to 
ensure no harmful interference.
    The ability of GPS to operate without interference remains 
of paramount importance to DOD.
    I thank you for your interest in our efforts, and would be 
pleased to answer any questions.
    Mr. Petri. Thank you for your very informative statement.
    Rear Admiral Day?
    Admiral Day. Good morning, Mr. Chairman, distinguished 
subcommittee members. Thank you for this opportunity to testify 
on the vital importance of the Global Positioning System to our 
maritime domain.
    My testimony today focuses on our and the Department of 
Homeland Security's concerns with the current proposed business 
plan for LightSquared, and its potential to disrupt GPS 
reliability.
    We must ensure that mariners, Coast Guardsmen, and the 
officers and agents in our sister DHS services have the 
capabilities that they require upon in our modern operating 
environment in the maritime, and GPS, reliable GPS, is a key 
enabler of that operational capability.
    The Coast Guard, too, participated in two interagency 
testing events in New Mexico and additional testing in Las 
Vegas, where we tested representative Coast Guard GPS equipment 
within the initial proposed LightSquared signal environment of 
transmitting in a dual channel mode at 1.5 kilowatts.
    The results demonstrated this: a typical Coast Guard 
surface unit, their GPS unit, demonstrated degraded performance 
within 3,300 meters of that source.
    A commercial solace grade mariner receiver demonstrated 
degraded performance also within 3,300 meters.
    A typical Coast Guard DGPS site receiver showed degraded 
performance within 7,500 meters of that source.
    A reliable and an accurate GPS signal is a core enabler to 
the proper operation of numerous maritime safety and 
navigational systems, which not only commercial mariners and 
the boating public use, but the Coast Guard and our DHS 
partners rely on.
    For this reason, any form of interference, not just 
potentially from LightSquared, but any form of interference to 
the GPS signal has the potential to impact the proper operation 
of the following systems that we use that are critical:
    Global maritime distress and safety systems and digital 
select calling radios, their distress alert functions could be 
impacted. GMDSS includes equipment including the SARSAT as well 
as digital selective calling radios.
    New DCE marine radios use GPS input, and when they hit an 
alert, that alert takes that GPS input and transmits it over 
that DSC radio to our command centers.
    Again, many, many smaller and passenger vessels, fishing 
vessels, and recreational boats heavily rely on GPS to 
determine their safe navigation and their location.
    Our automated information system. This system is used on 
ships and by our vessel traffic system, by which we take and 
manage traffic coming into our major ports. This system again 
relies on GPS input into the radios that transmit this 
position.
    We rely on AIS to build our understanding of our maritime 
domain awareness, what vessels are in our waters, what vessels 
are in our inner harbors and keeping track of them. We 
essentially rely on AIS which relies on GPS to build our 
maritime domain awareness.
    Our differential GPS system is a precision capability that 
allows us to take and place our aids to navigation. This is 
absolutely critical. This is another source of navigation GPS 
radar, but the visual source of navigation for vessels to 
safely come in and out of our ports and navigate.
    Not only that, the electronic chart systems aboard most of 
the vessels that are out there, again, commercial as well as 
our own, they leverage GPS so they can safely navigate and 
plot.
    We have been very pleased to be involved and are committed 
to continue our participation in the testing, and working with 
FCC, NTIA, and other interested parties in this test and 
evaluation process to identify possible mitigation's that will 
eliminate these interference issues.
    Based on the preliminary results and new strategies 
recently announced by LightSquared, there is much more work to 
be done.
    The Coast Guard is committed to assisting DHS and the 
National Telecommunications and Information Administration as 
they continue to support the FCC proceedings on this matter.
    Thank you for the opportunity to testify today, and I look 
forward to answering your questions. Thank you.
    Mr. Petri. Thank you. Thank you all for your testimony. My 
co-chairman, chairman of the Coast Guard Subcommittee, Frank 
LoBiondo, has asked that his full statement be made a part of 
the record, but he has some questions, and I would like to 
recognize him for them at this time.
    Mr. LoBiondo. Thank you, Mr. Chairman. I would like to 
thank the panel and also apologize. I am facing a markup in a 
few minutes. I wanted to at least be able to come in and thank 
the panel on this important topic and important hearing.
    Admiral Day, I have just a couple of questions. Several of 
the departments and agencies have come forward and expressed 
their concern with LightSquared's proposal and its impact on 
GPS, including the Department of Defense, Department of 
Commerce, NASA.
    However, the Department of Homeland Security has not made 
one comment.
    Admiral, I appreciate your coming here today very, very 
much, and expressing the Coast Guard's concerns with this 
proposal. However, why has DHS as the department responsible 
for maritime safety and security, still not voiced any opinion 
on this matter?
    Admiral Day. Sir, we have discussed this issue with the 
Department, and we have been carrying a lot of the water 
because of the maritime nature. Again, in my statement I did 
say that many of our other partners, obviously CBP, ICE, and 
other agencies do have an interest.
    Exactly why the Department has not represented directly, I 
cannot provide that at this time, but I can provide it for the 
record.
    [The information follows:]

        Coast Guard concerns with the LightSquared (LSQ) 
        proposal involve two issues: Interference to GPS 
        operations and interference to Inmarsat terminals used 
        in maritime operations.

        Regarding interference to GPS operations, the Coast 
        Guard, through its Spectrum Management and 
        Telecommunications Policy Division, became aware of the 
        likelihood that proposed LSQ operations would cause 
        interference to GPS operations in December 2010, 
        following the FCC's grant of a waiver to LSQ permitting 
        operation of its satellite system with an Ancillary 
        Terrestrial Component (ATC). The Coast Guard reviewed 
        the FCC Order, and in accordance with established 
        protocol for spectrum matters, discussed its concerns 
        with the National Telecommunications and Information 
        Administration (NTIA) and other Federal agency 
        representatives on the Interdepartmental Radio Advisory 
        Committee (IRAC). The Coast Guard IRAC representative 
        signed a multi-Federal agency letter to IRAC in early 
        January 2011, opposing the FCC action.

        With respect to interference to Inmarsat terminals used 
        for maritime operations, the Coast Guard has been in 
        discussions with LSQ and its predecessor, SkyTerra, 
        since early 2008. As Inmarsat is the licensee of the 
        particular frequencies that LSQ desired for use, and 
        these frequencies are part of the same band of 
        frequencies that Inmarsat uses for satellite terminals 
        serving the maritime community, including the Coast 
        Guard for the Global Maritime Distress and Safety 
        System (GMDSS), the Long Range Information and Tracking 
        (LRIT) system, and general communications, the Coast 
        Guard worked closely with LSQ and Inmarsat to reach 
        agreement on how Inmarsat maritime terminals would be 
        protected. These negotiations led to an FCC Order, 
        released in March 2010, that provided for the 
        protection of Inmarsat maritime terminals from LSQ 
        operations near navigable waterways. Negotiations on 
        these issues continue as the details have not been 
        worked out despite the protections afforded in the FCC 
        Order.

    We have been working very closely with the Department, as I 
say, carrying most of this water in this area, sir.
    Mr. LoBiondo. Another question. In determining the need for 
a backup for GPS, in the Coast Guard authorization bill, which 
we passed, there was a requirement that the Department complete 
its determination as to whether a backup system is needed, and 
that determination by law was to have been met by April 10, 
that just passed this year, 2011.
    Can you tell us what the status of the Department's 
determination on a backup GPS is, and do you know where this 
determination is in the process and when it will be delivered?
    Admiral Day. Sir, I do not have the exact information. We 
know it is in the Department being reviewed. I will get back to 
you as soon as possible for the record as to exactly where it 
is. I understand it was due on the 11th, but last I knew, it 
was in the Department, sir.
    [The information follows:]

        To meet the determination required by Section 219 of 
        the Coast Guard Authorization Act of 2010, DHS 
        continues its efforts to analyze Federal requirements 
        to determine a need for a backup to GPS. This has 
        primarily been accomplished through an indepth survey 
        of the current position, navigation, and timing 
        requirements for major Federal stakeholders. All data 
        has been collected, and the Department is actively 
        working with the Administration to finalize the report. 
        The final report will be forwarded to the Committees 
        soon after its release.

    Mr. LoBiondo. I want to thank you again, Admiral Day. 
Again, I thank you, Mr. Chairman.
    It is really frustrating when the Department of Homeland 
Security is totally pretending as if the Congress and the 
authorization and oversight committees do not even exist. We 
cannot get answers. We cannot get comments. Deadlines are 
missed. I do not know what additional action can be taken, 
certainly not at the fault of you or the Coast Guard, Admiral 
Day.
    It is just a reflection of frustration that we share in 
trying to understand. This is some pretty serious information 
that we need here.
    Mr. Chairman, I thank you for the accommodation and I yield 
back.
    Mr. Petri. Thank you. I have just one or two initial 
questions. The first one is for the whole panel, and is 
basically how do you recommend we proceed going forward?
    On Monday, LightSquared announced their lower 10 MHz 
solution, and indicated their analysis is it would solve the 
interference concerns for 99.5 percent of all GPS users.
    Do you agree or do you feel additional study is needed? 
What is the responsible thing to do at this point?
    Mr. Kienitz. I will start out on that. We are following a 
very careful protocol here. They made a specific and very 
detailed technical proposal to FCC earlier in the year. That 
proposal was then run through very specific and detailed 
testing.
    What we had on the 20th was, I think, a well intentioned 
announcement of a general strategy, but it has not yet turned 
into a specific and detailed filing through the FCC process.
    If that happens, presumably, we will all get it. All the 
technical people will sit down and look at it, recommend what 
kind of testing needs to be done and by whom, and then we will 
follow the tests wherever they lead us.
    Very preliminary thinking indicates that if they are 
transmitting in a zone that is much farther away from the GPS 
band, the interference is likely to be less, but if there are 
500 million GPS units out there and we are only interfering 
with 1 percent, that is 5 million. That is still a lot.
    That is phase one of some plan, and what is phase two? That 
is something we are interested to know. That is not information 
we have seen yet so we do not really know and cannot really say 
anything about it.
    Ms. Takai. Let me just add to what my colleague from the 
Department of Transportation said. As you know, we do work 
through a fairly rigorous process, working with our colleagues 
at NTIA and FCC.
    We are anticipating following the final filing of the 
results from LightSquared on July 1, as well as the results of 
our own testing.
    As we understand it, the FCC will need some period of time 
to review all the results of the testing, and then will come 
back to us with a specific request around what they would like 
for us to look at from a testing perspective, and if it is in 
fact a lower 10 MHz, then we would address that.
    That is extremely important because I think as my 
colleagues and I have stated, it is pretty impossible to do 
just wide range testing of everything. We need to really know 
very specifically not only what the plan is but also what the 
power levels will be and more detail to really be able to 
comment on the results of that testing.
    Secondarily, to add to what my colleague from the 
Department of Transportation said, we also are aware that 
working through only the lower 10 MHz is really only a part of 
the solution that will be needed.
    We are anxious to hear what the testing would be for that 
lower 10 MHz and then what the ultimate plan might be to 
actually get the 20 MHz that LightSquared has indicated they 
need.
    Admiral Day. Both of my colleagues covered pretty much the 
major issues there. We have not done the testing in the lower 
band. The business plan still calls for the need for a second 
band out there. We will continue that testing and find out 
exactly what the issues are and what the interference issues 
are.
    We have more work to do. I agree with both of my 
colleagues.
    Mr. Petri. Thank you. You all referred to not only testing 
the initial band but the thing going forward. You would like to 
see a clear plan for LightSquared to achieve their objective, 
but to do it in a way that you can assure us, I assume, that it 
will be as safe as humanly possible for the traveling public 
and what is under your areas of responsibilities.
    Is that correct?
    Mr. Kienitz. That would certainly be our preference. We do 
not have any unique view into what the underlying economics of 
their business are necessarily, but to the degree we have 
looked at it on a surface level, the economics of their plan 
appear to require more bandwidth than just 10.
    I am not an expert on that. I cannot really speak to that. 
With that hanging out there, we are very much wondering what 
phase two is. Maybe there is no phase two that is necessary. I 
do not know. You will have to ask them, I think.
    Ms. Takai. Yes, sir. Just to comment on your statement, I 
agree with you completely, and I think that is what my 
colleagues and I are saying, that we are concerned that we need 
to look at the complete picture of what the requirements would 
be, as well as understanding in the level of detail that we 
have on the upper 10 MHz, what they would have planned, and 
then be able to conduct the tests to validate that we would not 
see the interference that would cause us a problem.
    Mr. Petri. One last question for Mr. Kienitz. What do you 
envision as your role and the role of the Department of 
Transportation in this whole process?
    This committee, under Jerry Costello's leadership, was very 
aggressive in the last Congress in trying to raise NextGen, its 
importance, within the Department. I think they have been very 
responsive. It is starting to gain momentum.
    The advantages to the aviation sector and to the country 
are enormous for its rapid and proper deployment, and a lot of 
thought and work is now going into it.
    We want to be having follow up hearings on all of that.
    How does that all fit in with proposals like this, and our 
basic responsibility to ensure the public of the safety of 
aviation?
    Mr. Kienitz. I would say there are two main avenues for 
that. The first of which is obviously in programs directly 
under the authority of DOT's FAA, the air traffic control 
system, and NextGen being, I think, the largest of those.
    GPS is used in trains, trucking, shipping containers, on 
roads, transit. Everybody in the transportation business uses 
it now.
    We are both looking very specifically at NextGen, because 
that is an intensely safety critical system. It absolutely has 
to work 100 percent of the time if you are landing airplanes.
    That is something that obviously is a major focus of ours. 
The transportation industry is also focused.
    The second is the governance within the United States 
Government of the GPS system is this complicated thing, because 
there is so many uses and so many agencies.
    A while ago, in an attempt to streamline it, they created a 
structure in which DOD essentially talks with and represents 
all of the national defense agencies that have an interest in 
GPS, and DOT was named the co-chair, speaks with and represents 
all of the civilian agencies which have interests and actions 
in GPS.
    Our folks co-chair these various committees up and down the 
levels of seniority. We also have a responsibility to actually 
reach out, understand and then represent in the management of 
the system all the concerns of all the other civilian agencies. 
The net result is it is not just transportation. It is 
agriculture, it is public safety, search and rescue, weather 
satellites, all those other things as well.
    Mr. Petri. Thank you. Mr. Costello?
    Mr. Costello. Mr. Chairman, thank you.
    Mr. Kienitz, the taxpayers have invested billions of 
dollars in GPS related programs at DOT specifically.
    What is your view--is it the Department's responsibility to 
do something to protect that investment as far as GPS is 
concerned when it comes to FAA related programs, and what is 
the Department doing to make certain that it is protected and 
the investment in GPS is not put at risk?
    Mr. Kienitz. Yes. Obviously, our principal responsibilities 
are number one and ahead of everything else the safety of the 
traveling public. As I mentioned, specifically in the aviation 
area, that is a big deal to Secretary LaHood and to everyone 
who works for us.
    Our number one focus right now is making sure that 
absolutely nothing happens to GPS which compromises public 
safety in the aviation industry or anywhere else.
    You, as much as anyone else certainly in our department, 
has spent many, many years up until this point, and 
unfortunately, it is going to be a bunch more years creating, 
designing and implementing NextGen, and that will be in the 
tens of billions of dollars of taxpayer funds, and in the tens 
of billions of dollars in private sector investment by airlines 
and other folks to equip their planes.
    Those are big numbers. Those folks made those investments 
based on the understanding that they thought this was going to 
be a stable system that would exist in perpetuity as it exists 
now. That is a serious responsibility as well.
    I know if Secretary LaHood were sitting here, what he would 
say is safety is absolutely our number one goal.
    Mr. Costello. Back to the question, what is DOT doing right 
now? What is the plan to protect that investment?
    Mr. Kienitz. That gets to once again these odd governmental 
arrangements. The question of licensing a spectrum is not in 
our hands. The question of licensing a spectrum is something 
that the FCC does.
    What we do is testing, make our points as strongly as we 
can to the other partners within the Government to make sure 
FCC is hearing it.
    What they will do, I do not pretend to know.
    Mr. Costello. Anyone else on the panel want to try to 
answer the question?
    Ms. Takai. I would answer just to add a couple of items to 
what my colleague from the Department of Transportation said.
    At DOD, we have significant expertise as it relates to 
spectrum. One of the things that we are constantly doing is to 
really validate any additional uses for us against the uses 
spectrum we have today. The Air Force has considerable 
expertise.
    One of the things that we do with that is to continue to 
monitor and look for whether are not there are ways not only to 
be concerned about the interference with the current spectrum 
but also how we can use our spectrum more efficiently.
    It is always an issue for us that we are a significant user 
of spectrum, and we feel it is important for us to look ahead. 
One of the things that we are doing is to actually look and 
utilize some of our research capabilities to look at use of 
spectrum, what the issues would be around reducing our 
dependence on the spectrum that we have today.
    In fact, we already have some studies underway based on 
other FCC requests around spectrum to look at how we can move 
out of some of the existing bands we are in.
    We see that as a continuing effort. We see it as being 
important to be able to work through and be able to provide the 
kind of DOD participation in the President's initiative, and to 
do that, it really requires us to do technical studies ahead of 
time to look at how we can be more efficient in our use of 
spectrum.
    Mr. Petri. Thank you. Mr. Cravaack?
    Mr. Cravaack. Thank you, Mr. Chairman, and thank you, Mr. 
Costello, for having this very important meeting today. It is 
kind of near and dear to my heart, so I appreciate the panel 
for coming here today.
    Admiral Day, thank you for all the good service the Coast 
Guard provides to us on a daily basis that we actually know 
nothing about. Thank you for protecting us.
    In that vein, what I am very concerned about is the 
augmented GPS. I was a Navy helicopter pilot. I know how 
important it can be to our SAR rescues.
    Can you comment a little bit about that, the effect of what 
LightSquared could potentially do on our SAR rescues?
    Admiral Day. Again, our aviation assets rely heavily on GPS 
services, for prosecuting a search pattern, getting to exactly 
the right place where an emergency position beacon has gone 
off, and any impact in that accuracy is going to one, 
potentially put the crew in harm as well as delay possible 
rescues.
    Any interference. Not just LightSquared interference. It 
could be anybody's interference that is interfering in that 
band.
    It is a critical element of not only planning a search but 
executing a search and rescue mission.
    Mr. Cravaack. The augment in GPS in particular, the DGPS, 
is essential. It can bring down 2 to 10 feet, something like 
that, pinpointing a SAR rescue, which is essential, especially 
in weather when you have heavy winds and waves.
    Admiral Day. That DGPS system is highly reliant on the 
original GPS systems, such to put the corrections out to 
provide the additional accuracy in the receiver. That is 
correct, sir.
    Mr. Cravaack. Essential. Also, sir, could you please tell 
me on the potential to mitigate the interference concerning 
LightSquared, would it be possible to mitigate the impact for 
LightSquared's signal for all maritime GPS and dependent 
technologies?
    Admiral Day. Sir, it is probably beyond my level of 
expertise and more in the area of the GPS manufacturers as to 
what exactly needs to be done.
    The further you can keep the signal away from the primary 
bands, the better. In some cases, filtering can be used, but 
again, it is not my level of expertise, and probably a good 
question for those GPS manufacturers as to what it would take 
and how much it would cost.
    Mr. Cravaack. You have no idea on the potential?
    Admiral Day. I do not, sir.
    Mr. Cravaack. Not even to take a wag at it?
    Admiral Day. Given the variety and number of systems out 
there, pretty difficult.
    Mr. Cravaack. Can you please tell me in your professional 
opinion, on the potential of the conduct of the missions that 
the Coast Guard projects with the interference of LightSquared, 
or like you said, any type of interference, how it truly can 
impact the mission of the Coast Guard and our safety at large?
    Admiral Day. As I laid out in my oral statement, there are 
very few systems, from our MDA systems to those that are used 
aboard each and every cutter platform as well as aircraft out 
there, that is not highly relying on accurate positioning to 
conduct their missions.
    Additionally, for maritime commerce, the mariners that come 
in and work with us on our ports and actually use our ports are 
highly relying on it, as we are in keeping track of where they 
are, who they are, and where they are going.
    There is almost not an element in the Coast Guard mission 
that I can come up with that does not have a reliance on GPS.
    Mr. Cravaack. Can you comment on this, too, as well, you 
are in a rescue situation. GPS goes down. Do you have a good 
plan B?
    Admiral Day. Again, there are multiple uses. Are you 
talking from an aviation standpoint or----
    Mr. Cravaack. Any standpoint. Say you have heavy weather 
and you are out there, a typical rescue. You have sent out air 
assets. You have maritime assets out there as well. GPS is 
scrambled for some reason. Could you comment on how that would 
interfere with your mission?
    Admiral Day. Prudent navigators use a variety of different 
techniques. Obviously, we have become very reliant on GPS. 
Mariners rely on radar bearings. They also rely on visual 
bearings, as well as dead reckoning plotting, the old fashioned 
way of doing business.
    We have become very reliant on GPS. There are other 
alternatives out there. Again, I think we have put a lot of our 
stock in that GPS signal, sir.
    Mr. Cravaack. I figured as much. I am a brown shoe so I do 
not know about that maritime stuff. I apologize for that.
    I will yield back my time.
    Mr. Petri. Thank you. Ms. Hirono?
    Ms. Hirono. Thank you, Mr. Chairman. I think this is a very 
timely hearing that has elicited a lot of very specific 
information, especially as a number of us, including yourself, 
Mr. Chairman and Ranking Member Costello and I have sent a 
letter to the FCC expressing concerns about their waiver in 
this regard.
    Admiral Day, I have some very specific questions to ask 
you. We know the recent test results conducted by the RTCA 
strongly indicates that signals transmitted from LightSquared's 
ground based transmitters could interrupt or degrade GPS.
    For the record, I would like to ask a series of questions, 
if you could respond very briefly.
    These are on your systems that you expect could be impacted 
or would be impacted by transmissions from LightSquared, 
specifically, would the Coast Guard's automatic identification 
system, AIS, for vessels be affected?
    Admiral Day. Yes, ma'am. AIS requires GPS input, which 
tells the radio where the vessel is located and then 
retransmits it.
    It also relies on it for timing. There is a circular timing 
chain in which each of the vessels in an AIS area report. If 
there was a loss of the timing signal as well as obviously the 
loss of GPS input, AIS would not report out to the Coast Guard 
or to other vessels who are monitoring the vessel's position.
    Again, the timing piece could also scramble such we could 
have confusion in the reporting process.
    Ms. Hirono. Next question. With the differential GPS, DGPS, 
which provides greater precision for spacial information, would 
it be negatively affected?
    Admiral Day. Yes, ma'am. Again, that system relies on a 
solid GPS signal such that it can develop the appropriate 
corrections that it is going to broadcast out to enhanced 
positioning.
    Ms. Hirono. Would the Coast Guard's Rescue 21 distress 
system be compromised?
    Admiral Day. Rescue 21 could be compromised because again 
its network relies on timing signals that are derived from GPS 
to keep everything in alignment.
    Ms. Hirono. Would the search and rescue satellite aided 
tracking system, SARSAT, be disrupted?
    Admiral Day. SARSAT is one I am going to have to get back 
to you on the record, ma'am. I am quickly trying to come to a 
conclusion here, but I want to make sure I give you a correct 
answer.
    Ms. Hirono. I appreciate that. Would the vessel management 
system, VMS, be interfered with, and would the Coast Guard's 
fisheries enforcement activities suffer?
    Admiral Day. Again, the vessel management system requires 
GPS input such that those vessels can report their positions. 
Generally, for fisheries management, such that we can monitor 
where they are fishing, would be problematic in that we would 
not know exactly where they are if that signal is degraded.
    Ms. Hirono. Would electronic navigation systems utilized by 
Coast Guard vessels and commercial ships be disrupted and what 
would be the impact to safe marine navigation if such 
disruption occurs?
    Admiral Day. Again, if within the signal there is such a 
degrade to the GPS receiver, our operations and their 
operations would be impacted in terms that they would lose GPS 
positioning.
    As I discussed with the other Member, prudent mariners use 
other mechanisms to validate their positions, all the way from 
radar to visual, but at the same time, they would lose one of 
those elements for safe navigation.
    Ms. Hirono. Are there any other GPS dependent technologies 
utilized by the Coast Guard that could be disrupted by 
LightSquared's transmissions? You have 4 seconds.
    Admiral Day. Ma'am, if there are any others, I will get 
back to you in the record and tell you what they are.
    Ms. Hirono. Thank you very much, Mr. Chairman.
    Mr. Petri. Thank you. Mr. Landry?
    Mr. Landry. Thank you, Mr. Chairman. Admiral, thank you for 
your service and everything that the Coast Guard does, 
especially in the Gulf Coast.
    I have four questions and 5 minutes. Could you just briefly 
describe the basic information provided by AIS to the Coast 
Guard?
    Admiral Day. It is a lot more than positioning. It is crew. 
It is also cargo they are potentially are carrying. Again, this 
is if they are inputting the right information in. What their 
intended home port is, their port of destination.
    There is a lot more information that is provided in there 
than just the GPS piece, and we use that for vessel management. 
That's correct.
    Mr. Landry. Are there any drawback's to AIS to the Coast 
Guard?
    Admiral Day. Drawback's? No. It is a very useful tool for 
us.
    Mr. Landry. When AIS is turned on, does the technology 
provide quality domain awareness for the maritime industry and 
the Coast Guard?
    Admiral Day. Absolutely. The Coast Guard is not just the 
only user of that information.
    Mr. Landry. If we assume that AIS is turned on or activated 
on every vessel, does AIS accomplish the same goals of NOA?
    Admiral Day. Could you describe that last acronym, please, 
sir?
    Mr. Landry. If we assume based upon all the information you 
told me that AIS has the capability of providing for the Coast 
Guard----
    Admiral Day. I understand, sir, for advanced notification 
of arrival.
    Mr. Landry. Correct.
    Admiral Day. Probably not because of the 96-hour 
requirement. The AIS coverage is not such that it would get the 
96, other than some satellite notifications.
    Mr. Landry. Not in a broad sense, maybe my question was too 
broad. Specifically for the problem that we are having with 
NOA, which I was grateful on working with the industry on, when 
it comes to supply of vessels in the Gulf of Mexico and as they 
move from port onto OCS and then from rig to rig, or hopefully 
from rig to rig if we can get it back up and drilling again.
    Do you see what I am saying? Would that be a nice augmented 
approach to NOA specifically for American vessels that are 
operating in that type of environment?
    Admiral Day. Sir, it is sort of mixing a policy question 
and a technical question here. Technically, AIS does a great 
job, if properly used by the mariner, and gives us great 
information of who is coming in, where they are going, and 
where they are at right now.
    Mr. Landry. You let me know if you get in trouble for 
answering that. I think you are right on.
    Admiral Day. On the policy side, I do no think I can answer 
that for you, but we will get back to you on that one, sir.
    Mr. Landry. Thank you so much. Mr. Chairman, I yield back.
    Mr. Petri. Thank you. I have just one follow up question. 
It may be more appropriate for the next panel, but I appreciate 
any of you that would care to comment.
    There has been some talk about we are more intensively 
using the spectrum, about filters and how they work, and how 
they may accommodate more use.
    Could you discuss that? Are there filters? Is it one filter 
or is it certified? How does that process work? Are we talking 
about an easy solution or is it something that is basically in 
the future?
    Mr. Kienitz. I can address that a little bit, although I am 
not sure any of us up here are the world's greatest technical 
experts here.
    There is filtering on transmissions and there is filtering 
on receivers. Transmitters, there tend to be fewer of them. 
They are bigger. They are more expensive. If you need to put on 
a very high-tech somewhat expensive filtering system, that is 
potentially possible, and I think part of LightSquared's plan 
has been to make sure to have very high-quality filters so 
their signals do not leak out of their band.
    I think that technology is not necessarily cheap or easy, 
but it is around.
    The idea that you can put good filters on receivers--like 
my BlackBerry has a GPS unit in it, and it is a tiny little 
thing that is this big (indicating). Every cell phone has a GPS 
receiver in it.
    Finding filtering technology that can protect every single 
kind of GPS receiver from every single kind of use, who knows, 
the geniuses out there may be able to invent something right 
now. Unfortunately, we have 500 million units out there that do 
not have it.
    Even if someone invents something in the next couple of 
years and we start installing it on all the new stuff, you 
still have an enormous problem because these devices last. They 
do not wear out. These devices are going to be around for a 
long, long time. You are going to inevitably have a problem.
    Mr. Petri. There is no certified or recognized protocol or 
technology right now? It is something that is contemplated and 
would have to go through the approval process?
    Mr. Kienitz. That is another odd thing. There are lots and 
lots of smart people who are starting to think about this stuff 
right now. I assume there is a lot of technology out there that 
should there become a demand for it, it could potentially grow.
    In the FAA world, we do certify devices. Anything that goes 
into the cockpit of an aircraft has to be tested to 99.9999 
percent accuracy.
    Most GPS devices are not certified. There is no standard. 
It is a private sector business. The manufacturers make 
whatever they think will sell at whatever price point they want 
to sell it at.
    Mr. Petri. As far as aviation is concerned, there is 
nothing that has been certified?
    Mr. Kienitz. I think there are avenues that people 
understand, if we needed to do this, what avenues you would 
start going down, and they would pursue that. Right now, it is 
not readily available off the shelf.
    Mr. Petri. Very good. We have been joined by the senior 
member of the Coast Guard Subcommittee, Mr. Larsen, from 
Washington State. Mr. Larsen.
    Mr. Larsen. Mr. Chairman, thanks for the recognition, and 
thank you as well for allowing me to put my statement into the 
record.
    I have a hearing at 10:00, as well as I have been running 
around all morning. There is an Afghanistan hearing in Armed 
Services that I need to get over to.
    I just wanted to alert the witnesses and committee that in 
our subcommittee as well, we are very concerned about this 
issue. I have met with some of the folks who are involved with 
this issue over the last couple of days.
    As this progresses as well, on behalf of the Coast Guard 
and Maritime Transportation Subcommittee, we will be tracking 
this issue fairly closely as well, to ensure that these 
concerns get addressed, and a 100 percent solution is found to 
the problem, not just maybe a 99 percent solution. It is that 
important.
    I appreciate it very much, Mr. Chairman, Mr. Ranking 
Member, and I yield back. Thank you.
    Mr. Petri. Thank you. I would like to thank the panel. I 
hope you can make your schedule.
    Mr. Kienitz. I would like to thank you for finishing 
exactly at 10:00 so I can make my flight.
    Mr. Petri. Very good. Thank you all.
    The second panel consists of Ms. Margaret Jenny, President 
of RTCA, Inc.; Mr. Philip Straub, Vice President, Aviation 
Engineering, Garmin International; Craig Fuller, President of 
the Aircraft Owners and Pilots Association; Thomas L. 
Hendricks, Senior Vice President of Safety, Security and 
Operations, Air Transport Association; and Jeffrey J. Carlisle, 
Executive Vice President, Regulatory Affairs and Public Policy 
of LightSquared.
    I thank all of you for accepting our invitation to appear 
today. Thank you for the effort that went into your prepared 
statements, and invite you to summarize those statements in 
approximately 5 minutes, beginning with Ms. Jenny.

 TESTIMONY OF MARGARET T. JENNY, PRESIDENT, RTCA, INC.; PHILIP 
     STRAUB, VICE PRESIDENT, AVIATION ENGINEERING, GARMIN 
INTERNATIONAL, INC.; CRAIG FULLER, PRESIDENT AND CEO, AIRCRAFT 
OWNERS AND PILOTS ASSOCIATION; THOMAS L. HENDRICKS, SENIOR VICE 
 PRESIDENT FOR SAFETY, SECURITY, AND OPERATIONS, AIR TRANSPORT 
    ASSOCIATION OF AMERICA, INC.; AND JEFFREY J. CARLISLE, 
EXECUTIVE VICE PRESIDENT, REGULATORY AFFAIRS AND PUBLIC POLICY, 
                          LIGHTSQUARED

    Ms. Jenny. Good morning, Chairmen Petri and LoBiondo, 
Ranking Members Costello and Larsen, and members of the 
subcommittees.
    My name is Margaret Jenny. I am President of RTCA. I want 
to thank you for inviting me to participate in today's hearing 
on GPS.
    RTCA is a not for profit organization founded in 1935, and 
utilizes the Federal Advisory Committee. It is a premiere 
public/private partnership venue for developing consensus among 
diverse competing interests on critical aviation modernization 
issues in an increasingly global enterprise.
    Our deliberations are open to the public. We provide two 
categories of recommendations. The first, policy and investment 
priorities for facilitating implementation of air traffic 
management system improvements, and the second are minimum 
performance standards used by the FAA as a partial basis for 
certification of avionics.
    It is important to note here today that in my role as 
President of RTCA and in keeping with our time honored 
consensus process, I am authorized only to present the 
consensus findings of our deliberations, not my personal views 
or the views of individual members of the RTCA committee.
    It should also be noted that LightSquared was part of this 
consensus.
    My testimony today will summarize the findings of the study 
conducted by RTCA at the request of the FAA on the impact of 
the proposed LightSquared terrestrial wireless broadband 
network on GPS receivers onboard aircraft.
    The RTCA study assumed the three phased development plan as 
described by LightSquared, and concluded that all three 
spectrum deployment phases described by the planned terrestrial 
are incompatible with the current aviation use of GPS.
    However, modifications could be made to the LightSquared 
system to coexist with aviation use of GPS.
    The impact of the LightSquared upper channel spectrum 
deployment is expected to be a complete loss of GPS receiver 
function. The LightSquared upper channel interference from 
phase zero deployment exceeds the GPS receiver minimum 
operation performance standards related to the environmental 
limit by a factor ranging from 18,000 to 380,000, depending on 
the operational scenario that was involved.
    Further, because of the size of the single station 
deployment, GPS base stations below 2,000 feet would be 
unavailable for a large radius around the metropolitan 
deployment center.
    This means that if the GPS receiver will not be able to 
provide a position with any sort of continuity if at all, GPS 
based operations cannot be undertaken.
    Given the situation in the high-altitude East Coast 
scenario, GPS based operations would likely be unavailable for 
a whole region of altitude at which aircraft normally fly.
    However, the results of this study also indicate that 
terrestrial based station operations at the lower 5 MHz wide 
channel is compatible with aviation GPS operations for all the 
representative scenario's.
    Further, the study indicates that for terrestrial based 
stations using only the lower 10 MHz channels, there is a small 
positive margin for GPS tracking, not necessarily initial 
acquisition, in the presence of a mean aggregate terrestrial 
network interference.
    But, and this is an important but, these conclusions are 
based upon specific assumptions about the system operation 
provided by LightSquared to the committee.
    Worse impacts would result if LightSquared were to operate 
at the limits allowed by the FCC authorization.
    Let me give you two examples. The study assumed 
LightSquared base stations operate at 1.6 kilowatts channel per 
sector, whereas the FCC license allows up to 16 kilowatts.
    Second, the number of base stations per unit area was 
limited for the model provided by LightSquared for the study, 
whereas the FCC license does not limit density.
    In fairness and to enable a consensus to be reached, GPS 
receiver mitigation's were also explored. The RTCA committee 
found, however, that the only viable option is through the 
invocation of more stringent performance requirements for GPS 
antenna/receiver combination that would require manufacturers 
to layer filtering throughout the receiver front end.
    This approach would take many years to be installed on the 
entire fleet, since it would require new standards to be 
developed, TSOs to be issued by the FAA, new receivers to be 
built and certified to the new standard, and finally, installed 
on the entire fleet.
    This would be extremely disruptive to aviation, since it 
would cost billions of dollars and take somewhere between 10 
and 15 years to finish.
    Let me summarize. The recommendations from the study, 
number one, from an aviation perspective, LightSquared upper 
channels operations should not be allowed.
    Further study is recommended to determine refined 
terrestrial base station power versus frequency limit. This is 
particularly important in verifying the committee's conclusion 
for the LightSquared operation in the 10 MHz channel.
    In closing and on behalf of the hard working committee 
volunteers, and particularly their chairmen, Chris Hagarty and 
George Ligler, I thank you for the opportunity to testify here 
on this important topic, and I would be pleased to answer your 
questions.
    Mr. Petri. Thank you.
    Mr. Straub?
    Mr. Straub. Mr. Chairman, ranking members, and members of 
the committee, I am Philip Straub of Garmin International.
    I appreciate the opportunity you have given me to speak 
with you today as you assess technical opportunities and 
challenges we face in a similar but slightly different way than 
we do in industry.
    We are here to help you understand both the technical and 
policy issues resulting from the use of spectrum by competing 
technologies.
    Before I continue, I, like most people, want more options 
for broadband. I pledge the resources of my company to work 
with anyone in or out of Government to help achieve that goal 
in a way that is compatible with existing spectrum.
    Turning to specifics, LightSquared's proposed terrestrial 
network is just not a good neighbor to the GPS environment that 
is so critical to aviation and maritime safety.
    I would like to leave you with two thoughts today. One, 
LightSquared's proposed broadband terrestrial network will 
cause catastrophic and perhaps life threatening harm to 
reliable GPS services.
    And two, LightSquared's claim to reduce the risks, the so-
called mitigation, is not proven technically or practically. In 
short, their claims are not feasible.
    Why? A quick technology review. GPS signals come from solar 
powered satellites that are at a distance of over 12,000 miles 
away. GPS signals leave the satellite with a power of about a 
50 watt light bulb. GPS receivers, therefore, must be very 
sensitive to detect, acquire and hold on to a signal of a small 
fraction of a watt.
    After such a great distance, listening requires it to be 
very quiet, and where accuracy is paramount, some GPS devices 
must use a wide band GPS receiver.
    Adjacent strong signals overload GPS capacity that hear 
those signals, much the way loud talk drowns out a whisper. If 
you concentrate hard enough, you might hear the whisper, but 
chances are not enough to make any sense of it.
    And to the topic at hand, LightSquared's proposal is sort 
of like running a lawnmower in a library where people whisper.
    Speaking as an engineer, at 800 meters from a LightSquared 
transmitter, its signal is 4 billion times stronger than a GPS 
signal.
    GPS receivers are just not designed to exclude such strong 
signals, something that was never contemplated before the 
LightSquared waiver.
    Our test of LightSquared's proposed system, at nominal 
power against a FAA certified Garmin receiver, showed harmful 
interference at 13.8 miles and a complete loss of GPS position 
at 5.6 miles.
    And yes, we did submit this data to the FCC in a timely 
fashion.
    Turning to LightSquared's claim that filters are the 
answer, let me be emphatic and clear. Filters do not exist that 
would protect GPS receivers from LightSquared's proposed 
transmissions, none, not at all, not even prototypes.
    This is more promotion and PR than reality. We cannot test 
this claim.
    Let's also be real. If real filters do appear, they will 
have to be tested against stringent requirements imposed on all 
products, but especially those installed in the aircraft 
environment.
    They must withstand extreme conditions, temperature ranges, 
intense vibration, and even lightning strikes. They must also 
meet strict size and weight limitations.
    Add to that, time for certifications and approvals and 
retrofitting, it would take years and years, stressing both FAA 
and the industry.
    Plus, due to design variances, there is no one-size-fits-
all solution to this problem. Numerous filters would be 
required to fit a variety of GPS receivers.
    So even if we actually see one, the barriers are just too 
numerous to make filter use practical.
    Let me turn briefly to the latest solution that their 
initial service will only use the lower 10 MHz.
    The RTCA report says operation of a single lower 5 MHz 
channel might be compatible with aviation GPS receivers. That 
is based upon an assumption that LightSquared would operate at 
one-tenth of its authorized power limit, something their other 
statement recently put into question.
    RTCA simply did not reach any conclusion on the 
compatibility of a single lower 10 MHz channel with aviation 
use.
    So in conclusion, along with others, we've dedicated 
millions in resources, worked in good faith with technical 
working groups, and so far, results confirm the potential harm, 
confirm the degree of difficulty, and demonstrate the 
impracticality of their proposal.
    Just as Congress is in no mood for wasteful spending, we in 
the GPS industry are not either.
    Please do everyone a service, help put an end to this 
dysfunctional exercise, work to ensure the FCC's rescission of 
LightSquared's conditional waiver, as well as an overall review 
of ATC operations in the L-Band spectrum.
    At a minimum, LightSquared's proposed service should be 
moved to different frequencies outside of the MSS L-Band, away 
from GPS.
    Thank you for the opportunity to speak to the committee on 
this matter of vital importance to the reliability and the 
safety of our Nation's transportation system.
    Mr. Petri. Thank you.
    Mr. Fuller?
    Mr. Fuller. Good morning, Mr. Chairman, thank you, and 
Ranking Member Costello, thank you, and members of the 
committee for this hearing.
    I have submitted a statement for the record, and I am 
joined by my colleagues in the general aviation community at 
the National Business Aviation Association, General Aviation 
Manufacturers Association, EAA, and NATA, who concur in that 
statement.
    I would like to spend my few minutes here talking a little 
bit about the policy process. Ironically, 28 years ago, I was 
the head of the Office of Cabinet Affairs in President Reagan's 
White House, where the GPS policy was circulated, debated, 
discussed among all the Federal agencies, including the FCC.
    The decision was made to open this up to civil use. We had 
absolutely no idea that it would amount to the trillions of 
dollars of investment and utilization of GPS, and the hundreds 
of thousands of jobs over this 28-year period.
    I was a pilot at the time, and was not even sure it would 
be that valuable to me.
    It was not immediately valuable. In fact, two individuals, 
one named Gary and one named Min, took a few years, about 6, to 
form their company, called Garmin.
    Ten years after the decision had been made by President 
Reagan, we began to see hand-held Garmin GPS units in our 
aircraft. Ten years later, a 2003 Bonanza that I fly today, has 
two of them. It allows me to fly instrument approaches using 
nothing but the GPS signal, avoid weather, and avoid other 
obstacles.
    Throughout this 28-year period, administrations and 
Congresses, leadership on both sides, have protected a policy 
which I would call the ``do no harm'' policy. In other words, 
they recognized the use of GPS as a national asset and said do 
no harm.
    As I listen to the experts this morning and the testimony 
of this panel, I think there is an analogy with drug 
manufacturers in an odd sort of way perhaps.
    In the drug manufacturing world, we encourage investment. 
We benefit by investment, research, study, and testing of new 
drugs.
    There is an agency that looks at that process, and when a 
drug does harm, it does not come to market. Billions sometimes 
are invested, but if the drug does harm, it does not come to 
market, and if it does come to market for some reason that was 
not foreseen, and it is found to do harm, it is recalled.
    We have had a policy process that I characterize as a 
petition to use a satellite based transmission for datacom. 
Seems kind of reasonable. Then it seemed to need some ground 
transmitters, as has been discussed, to supplement that 
satellite based signal.
    Then it seemed to need more ground transmitters, like about 
40,000. Then it seemed it might cause interference, so filters 
would have to be used. Oh, the filters actually have to be used 
on the GPS units, not the transmitters that the new company is 
going to design.
    By the way, filters do not actually exist, but we think 
there is a way to get a hold of them. Oh, actually, there is a 
big problem, so we are not going to use the initial allocation 
we were given, we are going to switch to another allocation.
    I think we are probably working with a very innovative 
company. They move very rapidly through a whole series of 
alternatives.
    My biggest beef, frankly, is with the Agency that is 
supposed to control the policy process. The Agency that is 
supposed to control the policy process is the FCC, and they can 
and should do better than that because for 28 years, from 1983, 
when they were part of the original decision, through multiple 
administrations, we have seen fit to protect this technology.
    Mr. Costello asked a very good question, so what do we do 
now. We have certainly gone to the FCC in advance of them 
granting the waiver and told them the extent of the problem, 
told them they are putting jobs at risk, told them they are 
putting lives at risk, told them they are putting GPS at risk.
    We will continue to do that, but in all honesty, like the 
FDA, I think they need to issue a recall. I think they need to 
say we want innovation, we like innovation, but this is simply 
a toxic drug. This will not work in the system we have today. 
Let's pull it back. Let's go back to the drawing board.
    We in the general aviation community are certainly willing 
to work with any company on innovation for datacom services.
    I also think that given the 28-year history and the 
importance, as you have heard today, in terms of jobs and 
investment in GPS, that the Congress ought to investigate this 
policy path we have been on.
    It is very confusing. We cannot on an ad hoc basis simply 
look at new proposals and say well, we hope it works, so let's 
go down that path.
    Thank you very much for your time. I look forward to your 
questions.
    Mr. Petri. Thank you.
    Mr. Hendricks?
    Mr. Hendricks. Good morning, Chairman Petri, Ranking Member 
Costello and members of the subcommittees. Thank you for the 
opportunity to testify in this matter which is so critical to 
the airline industry, as well as other transportation modes, 
commercial enterprises, and recreational users.
    My name is Tom Hendricks. I am the Senior Vice President of 
Safety, Security and Operations for the Air Transport 
Association of America, representing the major passenger and 
cargo airlines of the United States.
    Prior to joining ATA, I was a pilot for Delta Airlines for 
23 years, as well as a military pilot for both the Navy and the 
Air Force.
    I want to emphasize at the outset that while the U.S. 
airline industry supports public and private sector efforts to 
expand wireless broadband service across the country, we 
strongly oppose any proposed service that would compromise the 
integrity of the Nation's Global Positioning System.
    Given that 5,600 commercial aircraft and tens of thousands 
of business and general aviation aircraft are GPS equipped, the 
continued unimpeded use of GPS is indispensable to the future 
of aviation.
    With respect to the U.S. airline industry, over 86 percent 
of our aircraft are already equipped with GPS. This has been 
achieved without any regulatory mandate and is based entirely 
on the remarkable capabilities of this navigation system.
    We are using GPS based arrival and departure procedures 
that are more precise and fuel efficient than radar and surface 
based navigation system procedures, and enable increased 
aircraft throughput.
    Today's commercial and general aviation users are heavily 
committed to GPS, and its importance to aviation will intensify 
over the coming decade.
    As the subcommittee knows, the civil aviation community has 
embarked upon the most ambitious transition in air traffic 
management ever undertaken.
    The system, known as NextGen, utilizes the positioning 
function of GPS to provide continuous navigation signals to 
airplanes, which then down link a position report at least once 
a second to air traffic control. This is a significant 
enhancement over the existing radar based system, enabling 
improved air traffic management. GPS will be used in all phases 
of flight, departure, in route, terminal area, approach and 
landing.
    GPS is a core technology behind NextGen, and will allow the 
national airspace system, which is increasingly constrained, to 
accommodate growing air traffic demand reliably and 
efficiently, while at the same time reducing greenhouse gas 
emissions.
    GPS spectrum has been protected until the Federal 
Communications Commission in a highly unusual regulatory action 
effectively revised its own rules for LightSquared, subject to 
certain tests and conditions.
    This provision, which the FCC characterized as a waiver, 
opens the door to the construction of 40,000 high-powered 
ground-based transmitters that will effectively render GPS 
signals unusable over the populated areas of the United States.
    This is not an exaggeration. Recent tests by RTCA, the 
Federal Advisory Panel on Aviation Navigation and Air Traffic 
Management Policy, definitively concluded that LightSquared's 
network would render GPS unusable by aviation users below 2,000 
feet, in the vicinity of a single city deployment, and at all 
altitudes in dense metropolitan areas.
    Similarly, the National Space-Based Positioning, Navigation 
and Timing Systems Engineering Forum concluded that 
LightSquared's system ``Cannot successfully coexist with GPS.''
    Given the multiple Government and industry reports of GPS 
interference issues posed by LightSquared's proposed system, 
LightSquared and GPS industry stakeholders have begun to 
discuss potential mitigation options.
    While well intentioned, the cost to the U.S. airline 
industry and other GPS users to implement the potential 
mitigation's far outweigh the benefits of allowing LightSquared 
to deploy its wireless broadband network.
    The first mitigation option would allow LightSquared to 
operate in the lower part of its currently licensed frequency 
spectrum at a reduced power setting. While this may be 
feasible, it is fraught with technical challenges not yet fully 
understood.
    Significant research and modeling is required to fully 
define this mitigation and conclusively prove whether it would 
achieve the desired effect.
    The second mitigation option would be to equip GPS 
receivers with filters to preclude interference from 
LightSquared's high-powered neighboring signal.
    Avionics manufacturers have questioned the feasibility of 
designing such filtering equipment, which do not currently 
exist for commercial aviation.
    It is possible that filters could interfere with the 
precision of the GPS signal, thus, limiting the usefulness of 
GPS receivers.
    Even if the development of filtering equipment proves 
technically feasible, the U.S. airline industry simply cannot 
afford to purchase and install it in over 7,000 aircraft, which 
would cost billions of dollars.
    This is not a viable option for an industry that has lost 
$55 million and 160,000 jobs over the last decade.
    Moreover, it would take at least a decade for filters to be 
developed, tested, and then certified by the FAA.
    This process would grind NextGen implementation to a halt, 
along with the creation of at least 150,000 U.S. jobs.
    The bottom line is that the U.S. airline industry and other 
GPS users did not cause this interference problem. We have 
relied on longstanding U.S. Government policy and international 
standards in the development and implementation of GPS 
equipment.
    If the FCC is determined to allow LightSquared to launch 
its wireless broadband network, the Agency should find 
alternative spectrum that will not compromise the GPS network.
    We ask the Congress to ensure that this vital national 
resource known as GPS, which is critical to commercial aviation 
and many other industries and relied upon by millions of 
consumers, be fully protected from any encroachment that could 
possibly compromise its effectiveness.
    I look forward to hearing your questions.
    Mr. Petri. Thank you.
    Mr. Carlisle?
    Mr. Carlisle. Chairmen Petri and LoBiondo, Ranking Members 
Costello and Larsen, and members of the subcommittees, thank 
you very much for giving me the opportunity to appear before 
you today to discuss our plans to bring services to American 
consumers in a manner that is fully compatible with uses of 
GPS.
    Members of the committees, I want to be absolutely direct, 
clear and unequivocal. LightSquared has no intention of 
operating its system in any way that will compromise Government 
or commercial aviation or maritime operations in the United 
States, nor do we believe the FCC would ever allow us to do so.
    LightSquared is investing $14 billion over the next 8 years 
to build a wireless broadband network that will allow Americans 
to communicate anywhere any time through integration with its 
satellite.
    This investment is going to support over 15,000 jobs a year 
for each of the 5 years that it will take to construct the 
network.
    When completed, our ground network will cover 260 million 
people and provide over $120 billion in benefits to American 
consumers.
    It is important to understand that coexistence of our 
system and GPS is not a new issue. It did not just come up in 
the last 6 months. We have worked with the GPS industry for 10 
years, and I have provided this history as Attachment 1 to my 
testimony.
    As a result of this work, we restricted our signal from 
intruding on the GPS band 9 years ago. In 2005, the FCC 
authorized us to transmit at the power levels we are going to 
use. We could have built the same network in 2005 that we are 
building today.
    In September 2010, the GPS Industry Council first raised a 
different issue. Certain GPS receivers are designed to not only 
capture GPS signals in the GPS band, but also capture signals 
in our band, and as a result of this design, these receivers 
can be desensitized or overloaded by our signals in our 
licensed spectrum.
    I have provided illustrations of this effect as Attachment 
2 to my testimony, and they are on the screens to the side and 
the back.
    What followed was perhaps the most extensive set of studies 
of interference ever conducted. The technical working group co-
chaired by LightSquared and the U.S. GPS Industry Council, and 
comprised of dozens of engineers from across several industries 
and Government, tested over 130 devices representing all GPS 
receiver categories. Numerous devices were also tested in 
independent testing by Government and private entities.
    Data that is publicly available from independent reports 
points the way to mitigation. The vast majority of GPS 
receivers look only at that part of LightSquared's spectrum 
that is immediately adjacent to GPS, the spectrum we had 
planned to use first.
    However, the recent Government Engineering Forum report, 
referred to as the NPEF report, RTCA, and a report by the 
National Public Safety Telecommunications Council, indicate 
that our operation in the lower part of our band, furthest away 
from GPS, does not cause interference.
    We believe that of the 400 to 500 million GPS receivers 
that are estimated to be in use today in the United States, 
operation in the spectrum farthest away from GPS will avoid 
overload for over 99 percent of the receivers, including those 
used for aviation and maritime operations.
    LightSquared believes the TWG results will largely confirm 
the direction pointed to by these tests and reports.
    Accordingly, we are proposing a three part solution. One, 
we will operate at the same power levels the FCC authorized us 
to operate in 2005 and voluntarily give up using higher power 
levels.
    Two, we will agree to a standstill in terrestrial use of 
the upper 10 MHz immediately adjacent to GPS, and we will not 
incorporate those frequencies into our terrestrial network 
until the FCC and NTIA are satisfied this can be done without 
risk to GPS.
    Three, we will commence terrestrial operations on the 
spectrum farthest away from GPS.
    The remaining less than 1 percent of devices are comprised 
of high-precision network and timing devices. There are 
filtered antennas available today for timing devices, and there 
are technical and operational solutions that can be used for 
high-precision and network devices.
    We can coordinate our roll out so that high-precision 
agricultural receivers will not be near base stations for 
several years.
    For those uses in urban areas that may be affected sooner, 
we can work out coordination of operations and spot replacement 
of high-precision and network receivers.
    These are activities that wireless companies do every day 
when they are rolling out in an area where there are incumbent 
users.
    We will also work with MMARSAT to find a place in our band 
where the augmentation signal for high-precision and network 
receivers can be isolated from terrestrial operations and can 
have a much higher certainty for their ongoing operations than 
they have today.
    LightSquared takes seriously the sincere concerns expressed 
by the GPS community. We will not interfere with aviation or 
maritime operations in the United States.
    The steps I have outlined that we are taking are not easy 
and they are not inexpensive, but they can and must be done and 
we are willing to do them.
    We are stepping up to this commitment so that Americans can 
get the benefit of our investment in critical infrastructure 
and continue to have all the benefits of a robust GPS system. 
Americans across the country should have both.
    Thank you very much, and I look forward to your questions.
    Mr. Petri. Thank you. Thank you all for your statements. 
Our colleague, Mr. Cravaack, actually had an opening statement, 
if you would like to do that, and then begin questions to the 
panel.
    Mr. Cravaack. It is not your fault, Mr. Chairman, I was out 
of the room. I apologize.
    Thank you, Mr. Chairman, and Ranking Member Costello, once 
again for this valuable and informative hearing, and I look 
forward to the testimony of the panel. Thank you very much for 
that.
    As a former Navy and commercial airline pilot, this issue 
specifically has some interest for me.
    From the outset, I want to be clear in stating that I 
appreciate LightSquared's goal in creating a nationwide 4G 
broadband network. Coming from a rural area up in Minnesota, it 
would be nice to have that.
    At this point, I am greatly concerned about the impact 
LightSquared's proposed network would have on our Nation. After 
looking into this issue and researching it, it is apparent that 
the interference from LightSquared's network has the potential 
to endanger our Nation's transportation system, which is 
heavily dependent upon GPS technology.
    The last thing a pilot wants to hear is that horn going off 
when he has lost signal coming in on an approach and in heavy 
weather.
    Talking of mitigating LightSquared's interference with some 
form of a filter, quite frankly, at this time--that is not 
available as I understand it--should be dismissed and is not an 
option.
    Even if a filter should be designed to block the 
interference and permit GPS use, the cost of the proposed 
filters would be harmful to our Nation's aviation industry, 
both commercial and general, and would put another burden on 
the general aviation pilots as well.
    In addition, I am gravely concerned about how 
LightSquared's interference could impede the work of the Coast 
Guard and other important Department of Homeland Security 
operations.
    According to written testimony by Assistant Secretary 
Takai, interference from LightSquared's operations could also 
pose a problem for our national defense. Our national security 
is paramount in importance to me, and I will be looking at it 
closely.
    I appreciate your comments in regard to LightSquared. I 
would like to jump right into that, Mr. Carlisle.
    I note that the RTCA's report concluded that the 
interference to aviation GPS might be avoided only if 
LightSquared was limited to the lowest 5 MHz of the L-Band 
spectrum; is that correct?
    Mr. Carlisle. Congressman, the RTCA report concluded that 
the lowest 5 MHz is compatible with aviation uses. The next 5 
MHz requires further analysis to determine if acquisition of 
the GPS signal is possible with regard to our operation.
    Mr. Cravaack. You proposed the use of the next 10 MHz as 
well; is that correct?
    Mr. Carlisle. What I am suggesting is the five that RTCA 
has said is compatible with aviation use and the next five that 
is under consideration, so both of those 5 MHz groups add up to 
10.
    Mr. Cravaack. What would you use the other five for? You 
said you are using five now; correct?
    Mr. Carlisle. We are not using it now.
    Mr. Cravaack. You plan to use the lower five?
    Mr. Carlisle. Right.
    Mr. Cravaack. The next five, you said there is a proposal 
for that; is that correct?
    Mr. Carlisle. Right. It would be used for our broadband 
service.
    Mr. Cravaack. Do you have any data saying if that would 
interfere with GPS at this point?
    Mr. Carlisle. Actually, yes. The technical working group 
has tested for a number of receivers, including aviation 
receivers, at the lower 10 MHz, and that data will be filed 
with the FCC next week.
    Mr. Cravaack. Can you give us a little hint?
    Mr. Carlisle. I can say what was publicly released by the 
RTCA report, which I believe is consistent with what the 
technical working group report will show, that aviation 
receivers actually performed significantly better than the 
minimum performance standards that were analyzed.
    That is not a justification to not analyze the worse case 
scenario used by the minimum performance standards, but it does 
indicate the bottom 10 could be used without interference to 
aviation operations. Further work needs to be done.
    Mr. Cravaack. Let me ask you a question. If LightSquared 
does not really plan to use the higher frequencies, and if you 
find out the next five frequencies--I am assuming we are going 
to have a lot of testing with this.
    Would LightSquared commit to us today and inform the FCC in 
writing that you or any subsidiary or future entities of 
LightSquared would not deploy a terrestrial system in the 
higher channels, if those prove to be harmful to GPS?
    Mr. Carlisle. What we would like to do is be able to move 
forward with our deployment on the spectrum farthest away from 
GPS. For the spectrum that is closest to GPS, the 10 MHz 
closest, what we would want to do is have further discussion of 
whether there is a possible glide path forward, not over 6 
months or a year, but over several years for use of that 
spectrum consistent with GPS operations, and that is going to 
require further discussion of whether there are mitigation 
options, whether there can be modifications to our operations.
    We believe that discussion should occur, and will need more 
time to occur.
    However, I would be very clear on this. We would not be 
able to use that upper 10 unless we were specifically 
authorized to do so. The FCC would have to consult with NTIA, 
FAA, DOD, the Coast Guard, all the affected Government 
agencies, before they did so, just as they consulted with them 
over the 4 years when they created these rules, 2001 to 2005.
    Mr. Cravaack. I just wanted to make sure that--you sound 
like you definitely want to do the right thing for the right 
reasons. I appreciate that.
    I just want to make sure that if we do find a problem, that 
LightSquared is ready to shut it down if we have to. That is 
the question I am asking your company.
    Mr. Carlisle. Congressman, I appreciate that question. As I 
said at the beginning of my testimony, we have absolutely no 
intention of operating this network in a way that will cause 
danger to the American public. We want to operate it 
responsibly and deploy it responsibly.
    That is why we have engaged in this process to test it out. 
It sounds like a relatively recent process that started. This 
is actually the 10th year of the work that we have been doing 
with the GPS community in order to work with GPS and in order 
to handle GPS interference, and we will continue that work.
    Mr. Cravaack. Thank you, sir. Appreciate it. If I can just 
have indulgence for just one more question.
    Ms. Jenny, if you can answer this question. Being an old 
pilot, backup to the GPS is LORAN-C, and that is what I used to 
fly with in South China Sea.
    I was wondering if you could tell me, do we have a possible 
backup plan if GPS is affected?
    Ms. Jenny. I think I would like to defer. I am really here 
to try to explain what the study showed for interference on 
GPS. I think the policy on the backup for GPS is still being 
determined.
    Mr. Cravaack. Currently, there is no backup?
    Ms. Jenny. No, I did not say that. I think it is probably a 
better question for the Department. For the study in question, 
the assumptions here were that GPS would be the primary means. 
The only question was what kind of interference would we get 
from LightSquared's deployment for GPS receivers onboard 
aircraft.
    Mr. Cravaack. Can anyone on the panel answer that question, 
backup to GPS?
    Mr. Fuller. As a practical matter, we do not have LORAN in 
our aircraft any more. We do obviously have VOR ground 
receivers that are still there, although they are being 
decommissioned.
    I would take this opportunity to add that the considerable 
interest and direction we have been moving with NextGen has at 
the very heart of it the utilization of the global positioning 
satellite system, GPS, in the aircraft, and indeed, it is the 
GPS signal that is so much more accurate in the aircraft than 
what our controllers have on the ground, that we want to get 
into the hands of the controllers.
    Putting that at risk puts at risk the whole NextGen effort 
as well.
    Mr. Cravaack. Thank you for the Chair's indulgence, I yield 
back, sir.
    Mr. Petri. Thank you. Mr. Costello?
    Mr. Costello. Mr. Chairman, thank you.
    Mr. Straub, in your written testimony, you conclude that 
LightSquared's proposed operation should be moved entirely to a 
different frequency away from GPS; is that correct?
    Mr. Straub. That is correct.
    Mr. Costello. I wonder if I could ask the other panelists, 
with the exception of Mr. Carlisle, if you agree with that. Ms. 
Jenny?
    Ms. Jenny. Yes. The study conducted, it did indicate that 
it is compatible at the lower five, provided they stayed within 
their power levels that we tested to, which were not the same 
as what they are authorized, and the density of the 
transmitters is what they told us they would do in the study.
    If those two things are true, then the lower five is 
compatible. The lower 10, if you add another five, needs more 
study.
    Mr. Costello. Mr. Fuller?
    Mr. Fuller. I am not a technical expert. I stand with what 
I said earlier. I think the technical experts at the Agency 
responsible for this policy, FCC, have to engage in very robust 
and active tests.
    We appreciate the notion that their company would work with 
people in the GPS community or who use GPS, but working with 
and concurring in are two different things. I do not know of 
anybody in the GPS community that believes that at least the 
approach as fully tested today would satisfactorily solve the 
conflict problem with these signals.
    Mr. Costello. Mr. Hendricks?
    Mr. Hendricks. Yes, thank you. I would just offer that we 
have created the safest form of transportation in the United 
States that exists. It has been a long process for the 
Congress, for the Department, for the Federal Aviation 
Administration, and for the industry itself.
    We have all worked together to shape the policies. As long 
as we can be guaranteed protection through our processes of 
certification done by the FAA in future avionics, then we would 
be satisfied with whatever proposal comes forward.
    I would like to emphasize the growth of GPS in the aviation 
community without question has increased our safety margins due 
to the highly accurate positioning function that we are able to 
achieve with it.
    Mr. Costello. Thank you, Mr. Chairman.
    Mr. Petri. Mr. Graves?
    Mr. Graves. Thank you, Mr. Chairman. My questions are for 
Mr. Carlisle. I have two concerns about your statement.
    In your opening statement, you said ``LightSquared can 
coordinate its roll out so high-precision agricultural 
receivers will not be near LightSquared's base stations for 
several years.''
    What does that mean? What happens in several years?
    Mr. Carlisle. What that means, Congressman, is that during 
the first 2 or 3 years of this deployment, we will primarily be 
focusing on urban areas where we can quickly meet our coverage 
requirements, and then ultimately, we will move out to less 
dense areas.
    That means there are several years available in order to 
work on technical solutions for precision receivers that will 
result in more resilient units that will not go all across our 
band like they do today.
    Mr. Graves. You are hoping you will find a solution before 
that happens. What do you define as an ``urban area?'' Are you 
going to deploy in smaller communities? What is a ``smaller 
community?'' What is an ``urban area?'' Obviously, you are 
going to go after those areas that have a little bit more 
density than just plain rural.
    Mr. Carlisle. Ultimately, we will. Again, for the first 2 
or 3 years, we are not going to be deploying near where the 
majority of those agricultural devices are used.
    Mr. Graves. Two to three years is different from several 
years, to be quite honest. That concerns me.
    The next thing you said is ``LightSquared will address this 
issue for over 99 percent of the receivers currently used.'' 
Ninety-nine percent, that is a pretty high mark. That means 
there are going to be some out there where it is not going to 
work.
    You talk about filters. Do you understand the process of 
how you get something certified for an aircraft and how 
expensive that is, and how expensive it is going to be for me 
to buy the damn thing to put in my aircraft?
    It is a long process. It takes a lot of money. Whatever 
that company is that comes up with that filter, they are going 
to have to ensure product liability, because if something 
happens and somebody gets in an accident, then the finger is 
going to be pointed at them.
    You have product liability and then you have the 
certification process. The certification process takes a while. 
Again, it is very, very expensive, for a piece of equipment 
that I am going to have to add to a piece of equipment that I 
already have, that is working well.
    I do not know if you understand that process and what it 
takes to get a piece of equipment into an aircraft. It is not 
as easy as just developing a filter and slapping it in there.
    Mr. Carlisle. Congressman, I absolutely hear your serious 
concern about this. We do understand the certification process 
is very involved and takes a long time.
    Let me make clear that the proposal we have made to move to 
the bottom 10, we are making it because of the indications that 
we are getting that aviation receivers, use of aviation 
receivers, would be compatible with that use, and would not 
require additional filtering.
    On the upper 10, the 10 closest to GPS, it seems likely 
that filtering would be required for that. Part of this 
discussion has to be exactly what that process would be and if 
it is feasible. We want to engage in that conversation with the 
industry and figure out what the costs are and the benefits, 
and what the alternatives are.
    Mr. Graves. Both of those statements concern me. We know 
there is going to be a problem out there. You have obviously 
demonstrated there could be a potential problem out there, and 
that concerns me for all those pilots that are going to have to 
buy another piece of equipment for their airplanes.
    It is getting tougher and tougher to be able to afford what 
we need to be safe in the air the way it is. Now, some are 
going to have to have a filter, and it concerns me for 
agricultural aviation, too.
    For 2 or 3 years, it is not going to be a problem, but it 
is going to be a problem after 2 or 3 years. We do not know if 
there is going to be a solution.
    In my part of the country, we depend heavily on 
agricultural aviation, and it is a very important aspect.
    I am not a technical wiz either. I just know what stuff is 
going to cost me, and I know it is getting harder and harder to 
fly.
    I know if it is affecting agricultural aviation, when it 
comes to GPS, I know it is going to affect other types of GPS 
for agriculture, because we use the same high-precision stuff 
when we are farming, and that means that is going to cost me 
more money to be able to fix that. If it is affecting 
agricultural aviation, again, I am not a technical genius, but 
it tells me it is going to get closer than I would be 
comfortable with when it comes to affecting other areas.
    I am terribly concerned about this. I will be honest with 
you, I am not comfortable with it whatsoever. I am not 
supportive whatsoever.
    I appreciate the opportunity, Mr. Chairman.
    Mr. Petri. Thank you. Mr. Lipinski?
    Mr. Lipinski. Thank you, Mr. Chairman. I want to thank you 
and Ranking Member Costello for holding this hearing today.
    I just want to say I concur with some of the concerns that 
Mr. Graves has about the certification process for general 
aviation.
    I want to focus on something else here. I think everyone 
can agree that GPS is critical to our national defense and 
affects virtually every mode of transportation.
    Billions of dollars have been invested in this system and 
billions of dollars depend on it.
    The bottom line is we need to do everything possible to 
ensure that GPS absolutely works, both now and in the future.
    As a member of the Aviation Subcommittee, I am particularly 
concerned about LightSquared's potential impact on aviation, 
and what it will mean for NextGen.
    As everyone here knows, NextGen is a satellite based 
aircraft surveillance in GPS, and it really is critical that we 
move forward on NextGen so that we can realize all of the 
savings in time, fuel, and safety increases we can have with 
NextGen.
    I want to ask Mr. Straub, Mr. Hendricks and Mr. Fuller a 
couple of questions. I would like each of you to comment on how 
the LightSquared proposal would impact efforts to boost 
NextGen.
    Will the proposal lead to any delays in implementation in 
your view, and if so, why would this occur?
    Mr. Straub?
    Mr. Straub. Thank you, Mr. Lipinski. I think one first 
clarification point on the lower 10 MHz of testing that was 
done, I want to first point out that was only done at one-tenth 
of the FCC authorized power limit, so one-tenth of the power 
was used here, and we found that there are at the minimum 
operational performance requirements, initial acquisition 
performance problems and degradation. So, we cannot at all say 
there is no issues in that lower 10 MHz.
    As to NextGen, one of the key attributes of GPS is its 
availability as a system. It has to be there. As the pilots 
know, when you fly an instrument approach, if the approach 
cannot be completed, you must go on to an alternate location, 
and each step like that takes away one safety net from the 
completion of the flight.
    That is a very serious concern. Also relating to NextGen is 
our ADSB system, basically, knowing where the aircraft are. The 
``D'' in ADSB is dependence upon GPS, so it has to be there. It 
has to be precise. You have to count on its continuity of 
availability. If we cannot count on those things, then I think 
we have to go back to the drawing board of NextGen and 
determine where we are and how we go forward.
    Thank you.
    Mr. Fuller. That is a very good question. Today and every 
day this week, the FAA's air traffic control system will manage 
something on the order of 50,000 aircraft over a 24-hour 
period.
    These are commercial aircraft and general aviation 
aircraft. One aspect of all those flights is they rely on GPS 
systems to navigate.
    In the aviation community, if you say well, there is only a 
1 or 2 percent problem, would you really want to go flying 
today if I told you that somewhere between 500 and 1,000 
aircraft are likely to lose their signal?
    Would you like us to rely on the instrumentation that is a 
fundamental part of NextGen technology to land aircraft when 
500 or 1,000 of them might lose their signal on approach, 
flying low over urban or rural areas?
    I think not. I think that is a standard in the aviation 
community we just do not accept.
    I know it will be said, well, it does not look like 
aviation has a problem. Yet, the very people who make the 
systems that we rely on in our planes that are certified by the 
FAA are saying we are not sure, we do not know. We do not see a 
solution.
    I think that has to weigh very heavily on us, and I 
guarantee you that if anything causes concern about the 
reliability of the GPS system that is in place, it will 
absolutely interfere with the development and advancement of 
NextGen.
    Mr. Lipinski. Thank you. Mr. Hendricks?
    Mr. Hendricks. Congressman Lipinski, thanks for the 
question. I appreciate it very much.
    I would like to offer my perspective on this. I am 
privileged to co-chair the Aviation Rulemaking Committee on 
ADSB and also I co-chair the NextGen Advisory Subcommittee. I 
am very engaged on NextGen activities.
    The process of certification that Congressman Graves spoke 
to a few moments ago highlights how we have been able to create 
this very safe system in the United States. It is very 
deliberate. It is very thorough.
    We build great confidence in any component we put into our 
commercial aircraft today that it is going to work as it has 
been designed and certified by the FAA.
    In fact, Congressman LoBiondo's constituents in his 
district at the FAA technical facility in Atlantic City play a 
key role in this process.
    It is a deliberate process. It takes time, but it builds 
confidence and it has proven to be an important underpinning of 
the safe operations we have been able to develop over years, 
and they are just getting safer.
    Another key element of this is if NextGen is delayed, and 
by some estimates, if we go through this certification process, 
NextGen could be delayed up to 10 years, we are going to forego 
the opportunity to create what we estimate are 150,000 jobs in 
the United States as a result of moving towards NextGen.
    We have very serious concerns. GPS is the cornerstone of 
how we are going to modernize our national airspace system and 
go to an even safer system than we have today.
    Mr. Lipinski. Thank you, Mr. Hendricks. I just want to say 
I am concerned about those job losses. I think this delay could 
really hurt American manufacturers, put them behind in 
developing and getting out their aviation products to market.
    There might be a role that DOT and DOD should play in the 
FCC process when it comes to matters that potentially impact 
GPS. I think it is something we certainly should look at.
    When I am out running with my Garmin on my wrist, concern 
about losing the signal certainly is not that detrimental, but 
when we are looking at other matters of concern, such as 
aviation, it certainly is. I think we all agree upon that.
    Thank you, Mr. Chairman.
    Mr. Petri. Thank you. Mr. Hultgren?
    Mr. Hultgren. Thank you, Mr. Chairman, and thank you all 
for being here. Just a couple of questions.
    The big issue that we are facing is job loss and really 
getting this economy rolling again. I just wanted to address my 
first question to Mr. Hendricks.
    In the airline industry, I wondered if you could discuss 
quickly what you would see as the impact on job creation if new 
cost burdens associated with interference mitigation would be 
born by the industry, what is your best guess of what the 
impact would be?
    Mr. Hendricks. Yes, thank you for the question. We are very 
concerned about the cost to certify, purchase, and equip any 
new capability in the aircraft to compensate for the spill over 
of signals into the GPS spectrum as we currently use it today.
    Estimates for the U.S. commercial airline industry are as 
high as $2 billion in additional costs. Our economists estimate 
that for every billion dollar of cost, we put 12,500 U.S. 
airline industry jobs at risk.
    I would just refer to my previous comments that NextGen for 
the country, we estimate that over a 10-year period, we would 
create 150,000 jobs.
    Job loss, the lack of job creation is a serious concern if 
NextGen is impacted the way we feel it could be.
    Mr. Hultgren. Switching gears a little bit, Mr. Hendricks, 
in your opinion, are there currently available technical 
solutions that would fully protect those GPS devices from 
LightSquared's interference?
    Mr. Hendricks. I am unaware of any certified equipment 
available today to accomplish this task.
    Mr. Hultgren. Mr. Straub, if I can ask you quickly, it 
seems to me that if the entire aviation industry were to have 
to equip avionics with GPS filters to meet new standards, 
manufacturers like Garmin could make a lot of money, but is it 
even feasible, are there technical solutions out there to 
address this GPS interference?
    With this interference, if you could help me understand a 
little more functionality, what would really be the impact, if 
there are filters there, how would it impact the functionality?
    Mr. Straub. Let me begin by saying right now, we know of no 
filters. We have seen PowerPoint presentations and hypothetical 
filters, but nothing that works.
    Without getting into a lot of the technical details, some 
of the things that have been proposed simply cannot work with 
the system. The antennas and the GPS receivers work together as 
a system to provide the required performance function.
    The upper 10 MHz is especially troublesome because it is 
immediately adjacent to the GPS band. We are talking about, if 
you can think of that 4 billion to 1 ratio, a terrestrial based 
high-power transmitter just is not compatible with a very weak 
50 watt light bulb in space type signal.
    We simply do not see a path at all to allow that to happen, 
regardless of what type of new filter innovations could ever 
exist. That is not touching necessarily upon the practical 
deployment side if such a thing did exist.
    Mr. Hultgren. Thank you again. I appreciate you all being 
here. I yield back, Mr. Chairman, thank you.
    Mr. Petri. Thank you. I have a couple of questions and then 
we will have another round as well.
    Mr. Straub, I guess you have been looking at this. It has 
been discussed for a number of years. It is not just something 
that came up last week. You have been working in this area for 
most of your life, I assume, professional life.
    You did not mince words. You had a rather strong statement 
talking about lawnmowers and trying to help people understand 
the technology of it.
    I just wanted to give you an opportunity, if you refer to 
the testimony of Mr. Carlisle and their efforts to modify their 
approach to accommodate aviation and other industry concerns, I 
just wonder if you could give us your analysis of that, if you 
see any problems with it and the like.
    Mr. Straub. I think we sincerely come to the table to try 
in goodwill to reach a compromise or a solution that can work. 
But, some of the challenges we have encountered--as I mentioned 
earlier, the FCC authorization was for up to 72 dBm of power. I 
think LightSquared had said they would execute at a maximum of 
62, which is where the RTCA testing and analysis was done.
    In the recent press release this week said, well, we will 
come out at only 50 percent of what was authorized, I believe. 
That is actually 69 dBm versus the 62 we tested out.
    Not to get into engineering speak and technical terms, but 
that is on a logarithmic scale. So, 10 dBm is a factor of 10.
    In reality, what they are proposing at this point is still 
far above what the testing and analysis was done at.
    That raises troubling concerns about what does that power 
spectrum really look like, and we simply do not know. If it is 
at that level, that is a very challenging level to deal with.
    We have invested millions of dollars, as I said, in 
basically understanding the proposal and how can we mitigate 
issues, and are just coming to the end that we do not see a 
means to do that.
    We look at it as an industry, a company, we realize that 
LightSquared must also be profitable in the end. And if they've 
said before their deployment is dependent upon being able to 
use all the spectrum out there to have the up links and down 
links of the required bandwidth they need.
    If that is a requirement and that upper spectrum is just 
not compatible at all with GPS, we just do not understand how 
they can get to a successful deployment over time.
    I guess it is the proverbial camel's nose under the tent. 
Eventually, the whole camel is going to be in the tent. In this 
case, that means GPS would cease to function.
    Mr. Petri. It is my understanding that the studies showed 
they could use one-fourth of their capacity at one-tenth of the 
power, but they are certified at half the power by the FCC.
    You would object to them going forward without modifying 
the FCC authority to put it down to one-tenth, but even then, 
it is 99.5 percent safe, and there is the worry, as Mr. Fuller 
and Mr. Hendricks pointed out, that in aviation, we do not 
shoot for 99.5 percent. That is not acceptable when you are 
dealing with human life and the like.
    You would object and feel that the FCC authorization should 
not be allowed to go forward under any circumstances unless it 
is significantly modified, and even then, there would be some 
risks; is that correct?
    Mr. Straub. I think we want to remove all the ambiguity 
about what are the limits, what can it be authorized at, and 
then let us do that analysis and testing.
    I guess I keep coming back to the point of if 5 MHz is not 
adequate for the business case to deploy ubiquitous broadband 
coverage, we would like to have some reassurance of what the 
plan is to make that happen.
    Because this is obviously a very costly--many industries, 
companies, ourselves, have spent millions and millions of 
dollars on this defending and protecting the GPS user base.
    We would want to have assurance of what is that plan to 
achieve the end goal.
    Mr. Petri. Mr. Fuller, are there any legislative areas or 
problems? We are basically here doing oversight. This is an 
area where it was basically FCC dealing with radio stations, 
and suddenly, we are dealing with conflicts between major 
corporations, between major sectors of our economy, becoming a 
hugely important economic infrastructure, so to speak, use of 
spectrum, and different capabilities that are built into how we 
lead our lives.
    Is there need for some review or study as to how we go 
about the process of resolving these conflicts or should it be 
left up to the FCC without modification as it currently appears 
to be done?
    Mr. Fuller. Since we are sort of flashing back to the 
1980s, I will use the phrase ``trust but verify.'' It is very 
promising that a company would say they want to work with us, 
and we want to work with them.
    It is sort of curious to me that the FCC would grant 
authority and waivers but say go see if you can work with these 
people and reduce the problems.
    Again, I think the FCC should do better than that. Nothing 
that I have heard says anything is coming off the table. We are 
going to voluntarily do this. We are going to explore that.
    Six years from now, we might have a different idea or a 
different plan.
    I think there is such a fundamental flaw in the policy 
process that legislatively, top of mind, I actually think the 
Department of Transportation, the FAA, and DOD should be 
required to sign off on something that is going to be a threat 
to this national asset we call GPS.
    It is going to fundamentally disrupt the whole NextGen 
initiative.
    I actually think there is something to be learned in the 
process we have gone down, where a company that is agreeable to 
working with everybody finds themselves in a position where 
they are allowed to go down a path and invest a lot of money.
    My view is just because a company has invested a lot of 
money, like the drug manufacturers, it does not mean we have to 
say well, gee, let's try to see if something will work, even 
though it might be dangerous.
    I do think there is a role for Congress both with respect 
to oversight and investigation and putting very clear 
requirements on the FCC, which apparently has gotten away from 
the interagency clearance process that used to exist, to make 
sure that before they take any further action, they clearly 
have requirements to get concurrence and sign off by other 
agencies that are going to be affected.
    Mr. Petri. Thank you. Did you have additional questions?
    Mr. Costello. Mr. Chairman, actually, I had a question but 
you just asked it. That is the exact question I was going to 
ask, from a legislative standpoint, is there something we ought 
to be doing.
    Mr. Petri. You might have suggested it to me.
    Mr. Costello. We have the extension coming up on Friday, we 
could put it in the FAA extension this Friday.
    I do not have a question, but I agree with you, Mr. Fuller. 
Mr. Chairman, I think it is something the two of us can work on 
and we should work on.
    In the interest of fairness, since we have four to one 
here, I am going to ask Mr. Carlisle if he wants to respond to 
any comment that has been made here.
    Mr. Carlisle. Thank you very much, Congressman. I very much 
appreciate that.
    I would make two main responses. One to comments by Mr. 
Straub and other comments that have called into question the 
power levels, and I want to be very clear about this.
    The testing was conducted at the power levels we were 
authorized to use in 2005, 1.6 kilowatts. The commitment that 
we have made is to only use that power level going forward, 
even though we are authorized by the FCC today to transmit it 
up to 15 kilowatts.
    We are giving that up, and we would seek a modification of 
our license so it is binding on us, so we would only move 
forward with the 1.6 kilowatt power level.
    The other thing that I would respond to is concept that Mr. 
Fuller brought up. We absolutely have an obligation to operate 
safely and operate without causing harmful interference outside 
of our bands.
    When this service was first authorized under FCC rules, 
that was not an overnight process. It was 4 years. It started 
in 2001. The rules were finalized on reconsideration in 2005.
    There were thousands of pages of comments from the airline 
industry, from the GPS industry, from the cellular industry, 
from the satellite industry.
    Moreover, part of that process was our voluntary agreement 
to limit our emissions out of our band in order to protect GPS 
because that is what the GPS Industry Council told us at the 
time, they needed to protect GPS receivers.
    In 2005, the FCC made two very important decisions. It 
lifted any limit on the number of base stations that could be 
deployed in this network and it established the current power 
levels of 1.6 kilowatts.
    That decision was not appealed. It was not reconsidered. 
There was no subsequent petition for rulemaking, and nobody 
approached us to seek a further modification of our agreement 
on our power levels for the next 6 years.
    In fact, in 2009, when we sought the increased power 
levels, the GPS Industry Council participated in that 
proceeding and withdrew. They did not object to power levels 
that were 10 times higher than what we are planning to use.
    That was in 2009. That was not 6 years ago. That was a very 
recent opportunity to come in and talk about this issue.
    The important thing about this is certainty. When we 
invested $4 billion in this company, in developing this 
spectrum, the GPS Industry Council had withdrawn without 
objecting to higher power levels less than a year before.
    We came in, we invested the money to develop this network. 
Now, if there is extraordinary action taken on a legislative or 
regulatory basis as a result of this--let's make one thing 
perfectly clear. If the waiver went away tomorrow, it would not 
make any difference to the interference issue. We would still 
be broadcasting at the same transmission level with the same 
number of base stations. The waiver did not in any way impact 
the interference issue.
    If there is extraordinary regulatory or legislative action 
taken, if we are not allowed to try to work this out on a 
cooperative basis, certainty on spectrum and the valuation of 
spectrum will be severely undermined in this country, severely 
undermined, depending on what version of the budget you look 
at, it is assumed that between $23 billion and $28 billion of 
revenue would come into the Federal Government over the next 10 
years on the basis of auctions of spectrum. That is not going 
to happen if investors cannot have some measure of certainty in 
the value of spectrum.
    What I would ask is that we be allowed to try to work this 
out on a cooperative basis going forward. We have made a 
reasonable proposal. We are willing to talk about that 
reasonable proposal.
    Thank you very much for your time and your patience.
    Mr. Petri. Thank you. Mr. Cravaack?
    Mr. Cravaack. Thank you, Mr. Chairman. Thank you, Mr. 
Carlisle. Appreciate that statement. Thank you very much.
    One of the things I am hearing from the panel is the filter 
systems have not really materialized yet. I understand from the 
GPS point of view, hey, we have been using GPS quietly, nobody 
has been bothering us.
    This comes in and there may be a potential problem. As I 
understand it, there may be a potential filter associated with 
this.
    The problem I see, like Congressman Graves was saying, this 
is an added expense to general aviation, to commercial 
aviation, you name it, whoever uses GPS.
    My question is would LightSquared be willing to pay for 
those filters going forward in the future?
    Mr. Carlisle. Thank you very much for the question, 
Congressman. We will detail this more as we detail our proposal 
at the FCC. As I mentioned briefly in my testimony, we are 
willing to underwrite the development of filtering technology 
for the new receivers and work on that cooperatively with the 
industry.
    On the question of available filtering, we know sitting 
here today filters are available. Filters for these devices are 
less than a nickel. There are filters for timing devices that 
are available on the market today for $100, from two different 
suppliers.
    There may not be filters for every type of GPS receiver, 
but there are filters available out there. Let's make no 
mistake. We also know as a result of the testing that certain 
receivers are much more resilient to this type of interference 
than others. There are best practices in the industry in terms 
of front-end design and filtering and other methods of 
eliminating this kind of effect.
    We know that is possible, and it has been possible for the 
last 6 years, certainly.
    Thank you for the question.
    Mr. Cravaack. Thank you for the answer.
    In your press release on Monday, you stated the new 
development plan involves a 50 percent power reduction on base 
station transmitters for the lower 10 MHz of the spectrum 
furthest from the GPS.
    Is this 50 percent reduction what LightSquared committed to 
the technical working group or from the FAA authorized level?
    Mr. Carlisle. In 2005, we were authorized to--I will give 
you both numbers. The number in the FCC order in 2005 was 32 
dBW. That equates to approximately 1.6 kilowatts.
    In 2010, we were authorized to transmit at 42 dBW or 
approximately 15 kilowatts, so 10 times higher.
    This is the level that we will not be using. We did not 
engineer our network to operate at it. We actually have 
engineered it to use the 2005 power levels.
    The only cell transmitters that exist are transmitters that 
operate at that level.
    That is the level we will use going forward, let me be very 
clear. That is what we are committing to going forward. If we 
have to clarify that further, we will do so.
    Mr. Cravaack. Are there any comments from the rest of the 
panel on that? It seems pretty clear.
    Mr. Straub. I think that is the clarity we are looking for, 
at least as a basis to understand where they propose going 
forward.
    There was ambiguity, it was not clear. As you asked, 
Congressman, is it 50 percent below that initial level? I have 
16 kilowatts, 15, whatever that is; or is it something in 
between that and the 2005 level?
    I think that is the spirit of cooperation and that we need 
to know so we can analyze those effects.
    Mr. Cravaack. Thank you very much, panel, and thank you 
very much, Mr. Chairman.
    Mr. Petri. Any further questions?
    [No response.]
    Mr. Petri. If not, we thank you very much for a very 
informative discussion. This hearing is adjourned.
    [Whereupon, at 11:15 a.m., the subcommittees were 
adjourned.]

</pre></body></html>
